                                                    SENSITIVE BUT UNCLASSIFIED



    A
                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General
Office of Inspector General


                                                 Office of Inspections

                                                       Inspection of
                                                  Embassy Paris, France,
                                                   and Constituent Posts

                                              Report Number ISP-I-12-25A, May 2012




                                                                Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be made,
                              in whole or in part, outside the Department of State or the Broadcasting Board of
                              Governors, by them or by other agencies of organizations, without prior authorization
                              by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report
                              may result in criminal, civil, or administrative penalties.




                                                    SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instance of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                           i
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                           ii
                              SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


                               Table of Contents
Key Judgments                                                                 1
Context                                                                       3
Executive Direction                                                           4
Policy and Program Implementation                                             7
  Political Section                                                           7
  Innovative Practice: Staffing Information Flow in a Large Embassy           8
  Law Enforcement Cooperation                                                10
  Economic/Commercial/Environment, Science, Technology, and Health Section   11
  Public Affairs                                                             13
  Consular Affairs                                                           17
  American Presence Posts                                                    23
Resource Management                                                          26
  Management Overview                                                        27
  Real Property                                                              28
  General Services Office                                                    33
  Facilities and Safety, Health, and Environmental Management                38
  Human Resources                                                            40
  Equal Employment Opportunity                                               42
  Financial Management                                                       43
  Information Management                                                     44
Quality of Life                                                              49
  Community Liaison Office                                                   49
  Overseas Schools                                                           49
  Health Unit                                                                50
  Commissary and Recreation Association                                      50
Management Controls                                                          52
  Staffing Gaps                                                              53
  Travel Authorizations                                                      54
  Fiscal Irregularity                                                        55
  Travel Vouchers                                                            55
  Payment Vouchers                                                           57
  Gifts                                                                      57
  Official Residence Staff Overtime                                          57
List of Recommendations                                                      59
List of Informal Recommendations                                             66
Principal Officials                                                          69
Abbreviations                                                                70




                                      iii
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Key Judgments
 •   A dynamic and visionary noncareer Ambassador has challenged embassy employees to
     tackle innovative projects while at the same time performing their important advocacy
     and support responsibilities. Working closely with the highly respected and experienced
     deputy chief of mission (DCM), the Ambassador has fostered excellent morale among
     both American and locally employed staff, put a new emphasis on support for U.S.
     exports of goods and services into France, expanded embassy outreach, added a focus on
     French youth, and worked to showcase U.S. green technology.

 •   Despite the mission’s size and the number of U.S. Government agencies represented,
     Embassy Paris displays impressive esprit de corps, and staff members perform well as a
     cohesive unit.

 •   The embassy has developed close working relationships with French officials on
     political, military, financial, environmental, and many other issues of mutual and global
     concern.

 •   The importance of the multifaceted and long-standing U.S.-French relationship is
     reflected in the seniority and number of official visitors the mission supports each year,
     but visitor support takes its toll on all embassy components.

 •   The tri-mission management (TMM) section does a good job of supporting the trio of
     U.S. diplomatic missions and handling a large visitor load; however, long-standing lapses
     in management controls have resulted in vulnerabilities in the procurement, voucher, and
     certification processes in all three missions.

 •   The embassy makes excellent use of its political section entry-level officers to coordinate
     the flow of information into and out of the embassy. The report features an innovative
     practice on the Paris Points and “Morning Message” programs.

 •   Embassy reporting is notable for its policy relevance, timeliness, and scope.

 •   The Department of State (Department) needs to examine the role of Consulate General
     Strasbourg in covering Council of Europe (COE) and European Parliament issues and to
     coordinate the consulate’s posture with all bureaus and missions that have equities in
     those organizations.

 •   France is the birthplace of the American presence post (APP) program. The APPs were
     established to conduct commercial and public diplomacy outreach and provide both
     routine and emergency services to American citizens, but their mandate has expanded
     over time. There has been no recent cost/benefit analysis to determine whether the APPs
     are still instrumental, given the increase in access to the public through social media and
     the centralization of many consular services.


                                        1
                           SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


   •   An experienced public affairs team effectively manages a wide range of programs,
       including strong social media outreach platforms that support mission goals and
       objectives.




All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect. The report does not comment at length
on areas where OIG did not identify problems that need to be corrected.

The inspection took place in Washington, DC, between January 3 and 31, 2012; in Paris, France,
between February 2 and March 20, 2012; in Marseille, France, on February 16 and 17, 2012; in
Bordeaux and Lyon, France, on February 21, 2012; in Nice, France, on February 22; and in
Strasbourg, France, on February 24, 2012. (b) (6)




                                          2
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Context
        The newly independent United States of America established its first overseas diplomatic
mission in France in 1776. Since that time, the U.S. Embassy in Paris has served as guardian of
the relationship with America’s oldest ally. The U.S. Mission in France provides a global
diplomatic platform, where representatives of some 40 agencies and departments work to
advance U.S. interests. In recent years, the two countries have forged a close partnership on a
wide range of issues. The United States has benefitted from France’s considerable influence
within the European Union (EU) and globally, given its assets and expertise in the Middle East
and Africa. France has returned to the North Atlantic Treaty Organization’s military command,
where French forces are once again a major Alliance asset. France played a key role in bringing
an end to the Qaddafi regime and is often a strong advocate for U.S. positions within European
councils, most recently on Iran policy. Likewise, the French share many of our values and play
an influential role around the world on democracy and human rights issues.

         France is the world’s fifth largest economy with a gross domestic product of $2 trillion. It
is the sixth largest investor in the United States, with some 760,000 Americans employed in
French-owned enterprises in the United States. Conversely, the United States is the largest
foreign investor in France, where American firms employ some 650,000 persons. France is the
eighth largest trading partner of the United States, with transactions between the two countries
totaling some $100 billion in goods and services in 2010. Scientific cooperation between the two
countries is long-standing and extensive. This is reflected in a bilateral agreement on science and
technology cooperation that has been in place since 2008. French advances in the development
and use of nuclear energy have long been a source of interest to and cooperation with the
American scientific community.

        In light of the increased U.S. engagement with France across a wide spectrum of
political, economic, and cultural issues, the mission’s workload has increased noticeably while
human and financial resources have remained relatively static. The Department alone currently
employs approximately 180 U.S. and 350 locally employed staff members. In addition to the
embassy and the two consulates general in Marseille and Strasbourg, four APPs in Bordeaux,
Lyon, Rennes, and Toulouse conduct public diplomacy outreach as well as some commercial
support and consular activities.

         In addition to the traditional work of diplomacy, Embassy Paris has set itself several
priorities, including outreach to French youth and minorities, the promotion of green technology,
and the maintenance of a vibrant U.S. presence outside the capital. Mission staff is called on to
balance the sometimes conflicting priorities of arranging and staffing U.S. official visits and
providing Washington with in-depth analytical reporting. During 2011, France presided over
both G8 and G20 meetings that brought additional official visitors to the country. The embassy
supported more than 9,000 official visitors, including 2 visits by the President, 4 visits by the
Secretary of State, and visits by a dozen other Cabinet-level officials during the year.




                                           3
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Executive Direction
        Embassy Paris serves as a global diplomatic platform, providing advocacy and support
services to dozens of U.S. Government departments and agencies from the American Battlefield
Monuments Commission to the U.S. Secret Service. If an agency’s responsibilities involve
equities outside the United States, someone at Embassy Paris provides assistance to that agency.

        The steady stream of high-level official visitors is driven by the close bilateral
relationship with France as well as the key role the French play in international affairs. French
President Sarkozy brought France back into the North Atlantic Treaty Organization’s military
command; U.S. Government experts work closely with their counterparts in France on efforts to
contain instability in the Middle East, Africa, and South Asia; and French troops have stood
shoulder to shoulder with U.S. troops on the ground in Afghanistan from the beginning of the
military action. More recently, the French have taken a leadership role in resolving the Eurozone
financial crisis and have shared U.S. insistence that Iran comply with UN resolutions designed to
deter development of nuclear weapons and to improve transparency.

        The U.S. Mission to France is ably led by a dynamic and visionary noncareer
Ambassador who has challenged his staff to tackle innovative projects while at the same time
performing their important advocacy and support responsibilities. Working closely with the
highly respected and experienced DCM, the Ambassador has fostered excellent morale among
both American and locally employed staff members, put a new emphasis on support for U.S.
exports of goods and services into France, expanded embassy outreach, added a focus on French
youth, and worked to showcase U.S. green technology.

        None of these achievements would have been possible had the Ambassador not fostered a
culture of inclusiveness and cooperation among the many U.S. Government departments and
agencies represented on his country team. Heads of agencies expressed unanimous appreciation
for the Ambassador’s and the DCM’s consistent message that all issues should be thoroughly
reviewed by all parties that have equities in the debate before decisions are made. One senior
head of agency told the inspectors that Embassy Paris has the most collegial interagency
atmosphere he has experienced in his 30-plus years of international service.

       One of the Ambassador’s interagency challenges is the need to enhance Department of
Homeland Security’s (DHS) policy and operational coordination within the embassy. There are
four DHS entities working in France, including U.S. Immigration and Customs Enforcement, the
U.S. Secret Service, Transportation Security Agency, and U.S. Customs and Border Protection.
DHS designated the senior U.S. Immigration and Customs Enforcement officer as the senior
DHS representative accredited to France. His extensive travel and large regional area of
responsibility, however, limit his ability to support the Ambassador on DHS policy and
coordination issues. The Ambassador and DCM are examining best practices used by other large
embassies with a similar DHS footprint to decide on an optimal course of action. The inspectors
encouraged them to raise this issue with DHS leadership in the near future.

       The Ambassador and DCM are both strong participants in the embassy’s security
program. They set a positive example in their own stewardship of sensitive information and work

                                          4
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

closely with the regional security officer to make sure he has the high-level support he needs for
a strong security program. The embassy will host a crisis management training exercise in the
months after the inspection. The Ambassador has taken to heart the recent message to all chiefs
of missions on the importance of crisis planning, and he has volunteered to participate in future
radio checks as a means of encouraging greater participation by embassy staff.

         Not long after his arrival in France, the Ambassador outlined three specific goals for his
tenure. One of those goals was to improve the image of the United States in the eyes of average
French citizens; in particular, he was determined to find new ways to reach out to French youth.
Under his direction, Embassy Paris established active Facebook and Twitter accounts that are
now serving as an important means of communicating with young French citizens. The
Ambassador also recognized that the election of President Obama had given the embassy a
window of opportunity to influence the thinking of disadvantaged youth living in the outskirts of
Paris. He set up a series of interactions between these youth and icons of American culture such
as Samuel Jackson, Will.i.am, Woody Allen, and Jodie Foster. The fact that he invited groups of
disadvantaged youth into his home for these seminars, coupled with his own visits to their home
turf in the economically depressed Paris “banlieues,” demonstrated both his personal
commitment and the U.S. Government’s insistence on equal opportunity. Both the Ambassador
and the DCM provide their full support to the embassy’s Equal Employment Opportunity
program.

        Under his leadership, the embassy’s public diplomacy activities have blossomed. The fact
that both the Ambassador and the DCM speak fluent French opened up new public diplomacy
opportunities that the embassy has exploited successfully. For example, the Ambassador
appeared on a major French television show where he was viewed by more than 6 million
residents of France. He also opened the doors of his residence to a French television cooking
competition so that viewers would see that there was more to American cuisine than hamburgers.
He recorded a voting video for the consular section and video greetings on the Armed Forces
Network to U.S. troops serving in Afghanistan—both firsts for a U.S. ambassador.

         His communication efforts within the embassy community have been similarly
successful. Surprised to discover that previous ambassadors had never hosted open-mike town
hall meetings with embassy staff, he has held a series of such meetings to bring together
American and French staff members and to give them an opportunity to ask questions. He has
tried to break down barriers among embassy sections and to foster greater understanding of
technical issues by holding “drill down” sessions where mid-level subject matter experts make
presentations to him with attendance open to interested American officers. Last year, for the first
time, the embassy held its awards ceremony at his residence, and a reception for embassy staff
members followed the formal ceremony.

       It is difficult to impress senior locally employed staff members who have seen
ambassadors and DCMs come and go over the course of 20 or 30 years. However, long-time
French employees expressed great appreciation for the efforts the Ambassador and the DCM
have made to create an atmosphere of trust and inclusion for locally employed staff. American
staff members report satisfaction with embassy leadership and for the high ethical standards and
commitment exhibited by both senior officers. Overall, morale within Embassy Paris is good.

                                           5
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

         The first- and second-tour (FAST) program has not been particularly vibrant in Paris. The
DCM sought information on best practices from his counterparts at large U.S. embassies and
directed the human resources office to develop a revised and reinvigorated FAST program. The
entry-level generalists and specialists interviewed expressed a desire for more targeted mentoring
and more opportunities to develop career-enhancing skills. Because the revised FAST program is
still a work in progress, the inspectors urged the entry-level officers to work closely with the
DCM and the human resources office so that the final product meets the needs of all parties.




                                          6
                             SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
Political Section

        France’s global influence makes it a prominent U.S. ally. As discussed earlier, France’s
political interests and activities in the Middle East, Africa, and South Asia parallel those of the
United States. The political section engages French interlocutors in all these areas, effectively
advancing U.S. interests. Washington consumers value the section’s reporting, which reflects an
impressive array of contacts in government, the opposition, think tanks, and academia. The
intensity of the U.S.-French relationship keeps the political section fully occupied, although the
need to support a steady stream of U.S. Government visitors has, at times, stretched the section’s
resources.

         Communication is a challenge in any large section. One of the section’s four unit chiefs
meets briefly each morning with locally employed staff to share information and set operational
priorities, thus enhancing team work. The section produces many reporting messages, and the
clearance process can be cumbersome. During the inspection, the embassy took steps to
streamline the clearance process, which should facilitate timely reporting. The section has not
retired its electronic files for more than 2 years. Section leadership recognizes the need to
comply with Department record management requirements and is taking steps to do so.

      All political officers actively engage in public outreach. A mid-level officer chairs the
embassy’s minority outreach working group, which focuses on women, youth, and Muslims.

        In May 2011, the Department selected the embassy to pilot a program for countering
violent extremism, which entailed establishing an interagency working group for coordinating
and reporting on this effort. A political officer has responsibility for reporting on this issue, but,
10 months later, the working group had not yet convened, due in part to embassy concerns over
the applicability of the model to practical conditions in France. The mission is taking steps to
establish the working group, engage actively, and report on the issue.

Staffing

        Paris has the largest political section among U.S. embassies in Europe, and the
Department views it as one of the most productive. The size of the political section has increased
by three locally employed staff positions in the past 8 years. Two locally employed staff
members are cleared U.S. citizen employees and carry out responsibilities similar to those of an
officer. On at least one occasion, a cleared locally employed U.S. staff member filled in for
nearly a year during an officer staffing gap without sacrificing the quality and timeliness of
reporting and contact work. The embassy has undertaken no recent review of political section
staffing to determine whether there is excess capacity that could be put to better use elsewhere
within the embassy. (See the Economic/Commercial/Environment, Science, Technology, and
Health section of this report on the related issue of staffing in the embassy’s economic section.)

       Informal Recommendation 1: Embassy Paris should review existing political and
       economic section staffing to determine whether the allocation of resources is consistent
       with overall embassy requirements and make adjustments as necessary.
                                            7
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Reporting

        Washington consumers credit the political section with providing valuable analyses of
French interests and objectives. They consider the quality, breadth, relevance, and timeliness of
the section’s analytical and spot reporting to be outstanding. The section received particularly
high marks for its reporting on the Tunisia and Libya crises of 2011. Reporting is concise and
relevant, often including recommendations that are helpful in shaping U.S. policy. Political
officers engage key sources on the conflict in Syria. Much of the section’s reporting is
coordinated with the economic section and reflects comprehensive policy perspectives.
Biographic reporting is placed on the government’s Intellipedia and Diplopedia Web sites,
maximizing access by Washington readers. The section also excels in explaining the impact of
the approaching French presidential elections on French foreign and security policies. The
section recently gained an Iran watcher position, expanding reporting on this important topic and
reflecting France’s leading role in shaping Europe’s Iran policies. The embassy appropriately
uses special caption messages to provide a steady stream of reporting on sensitive issues for
high-level U.S. policymakers.

        Washington readers praised the embassy’s daily Paris Points, which the political section
edits and transmits. This report combines political and economic reporting, is transmitted by both
classified and unclassified channels, and complements open-source media reporting. The
section’s reporting on domestic affairs is keyed appropriately to elections or high-level personnel
appointments that have potential impact on U.S. interests. The APPs and consulates contribute to
embassy reporting, especially Paris Points. Contributions from the constituent posts have
enriched embassy reporting on the French presidential election campaign. Consulate General
Marseille has responded to the embassy’s requests for reporting on political and social issues and
contributes regularly to Paris Points but has not been proactive about reporting. The consulate in
Marseille covers a politically and socially important region of southern France. The number of
Marseille’s reporting messages is low in comparison to Consulate General Strasbourg, which has
only one officer. The embassy has encouraged Marseille’s consul general, a political officer by
training, to provide more reporting.

Recommendation 1: Embassy Paris should implement a reporting plan for Consulate General
Marseille. (Action: Embassy Paris)

Innovative Practice: Staffing Information Flow in a Large Embassy

Innovative Practice: Staffing Information Flow in a Large Embassy

Issue: The Embassy Paris political section needed a way to enhance mission productivity, share
information across sections, eliminate duplicative work, coordinate taskings, and develop entry-
level officer skills.

Response: The section developed two procedures for coordinating incoming and outgoing
information that are singular in their scope and organization. The section rotates daily
responsibility among its four entry-level officers and a cleared locally employed U.S. citizen
staff member to edit the embassy’s daily Paris Points report, to which other embassy sections
and constituent posts contribute. In addition, every day one member of the political section,
including entry-level officers, takes responsibility for compiling a “Morning Message” that
                                                  8
                               SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

screens incoming cables and provides all economic and political officers, the DCM, and the
Ambassador with relevant information. This information includes Washington taskings,
incoming cables of interest, the embassy’s outgoing messages from the previous day, a hyperlink
for contributions to that day’s Paris Points report, and general housekeeping information.

Result: Entry-level officers have an opportunity to develop professional skills, information flow
within the embassy is integrated, and collaboration is fostered across sections. The political and
economic section chiefs are able to monitor and oversee assignments, and the system reduces
redundant work on the part of officers in the two sections. The executive office can confirm
easily that taskings are being coordinated and that information is shared appropriately. This
process is suited to a large embassy, where internal communications and coordination can
sometimes be a challenge. It also contributes to entry-level officer professional development.

Consulate General Strasbourg

        There is broad recognition among U.S. officials in Washington, Paris, and Strasbourg that
the current division of responsibilities between Consulate General Strasbourg and the U.S.
Mission to the EU is a legacy that does not reflect today’s reality. The U.S. Mission to the EU,
whose focus is on pan-European issues, has virtually no stake in the U.S. presence in Strasbourg.
The U.S. Mission to the EU sends its own staff from Brussels to report on the European
Parliament, which meets for 1 week each month in Strasbourg, while the consulate general in
Strasbourg covers the other pan-European institution based in Strasbourg, the COE. This
anomalous situation where two U.S. missions in two separate countries cover two pan-European
organizations in the same city is both illogical and a poor use of resources. As a senior U.S.
diplomat in Washington remarked, “if it were starting from scratch, the State Department would
never come up with this arrangement.”

        Consulate General Strasbourg consists of one Foreign Service officer, supported by five
locally employed staff members. The consul general has duties that include public diplomacy,
consular services, promotion of U.S. exports, and political and economic reporting. The
consulate general performs similar functions and handles approximately the same volume of
work as the four one-officer APPs in France, but the consul general is also accredited as the U.S.
deputy permanent observer to the COE. In 2011, Embassy Paris management and information
technology staff members were Strasbourg’s most frequent visitors. In general, the political and
economic sections do not provide regular support in covering the COE.

        The United States is unique among observer states, which include Japan, Mexico, and
Canada, in accrediting its bilateral Ambassador to France to serve as the Permanent Observer to
the COE. In practice, the current Ambassador, like his predecessors, delegates to the consul
general the responsibility for representing the United States in the COE, which was founded in
1949 to promote democracy, human rights, and the rule of law. One of the COE’s subordinate
entities is the European Court of Human Rights, to which court rulings of member states can be
appealed. To make chain of authority even more complex, the legal attaché of the U.S. Mission
to the EU has responsibility for the European Court of Human Rights.

       The OIG’s 2009 inspection report on the U.S. Mission to the EU noted the high cost in
having the U.S. Mission to the EU send Foreign Service staff to Strasbourg to cover EU
                                          9
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Parliamentary sessions. In FY 2011 U.S. Mission to the EU staff made at least 33 visits to
Strasbourg, many for multiple days, to engage with the European Parliament and the European
Court of Human Rights at a cost of more than $40,000. This cost could be reduced if employees
from the U.S. Mission to the EU used the consulate general’s available residential and office
space, but they rarely do so.

        The political role of the European Parliament in shaping EU decisions has grown in
recent years, a trend that Washington observers expect to continue. Washington consumers also
see a need for expanded reporting on the European Parliament. Consequently, the U.S. Mission
to the EU will continue to have significant interests in Strasbourg and send staff there regularly.

        In 2011, Embassy Paris shared a discussion paper with the Bureau of European and
Eurasian Affairs and with the U.S. Mission to the EU about the need for a new and more
efficient approach to the U.S. presence in Strasbourg. The Department of Justice and DHS may
also have an interest in this issue. The Bureau of Overseas Buildings Operations (OBO) and the
Bureau of Diplomatic Security are in the process of addressing issues related to the consulate
general’s facilities. Pending decisions related to renovation and the sale of property will have
significant cost implications, but there is no long-term plan on how to efficiently represent the
United States to the COE and the European Parliament in Strasbourg.

Recommendation 2: The Bureau of European and Eurasian Affairs, in coordination with the
Bureau of Diplomatic Security, the Bureau of Overseas Buildings Operations, Embassy Paris,
and the U.S. Mission to the European Union, should devise a strategic plan for cost-effective
U.S. representation in Strasbourg. (Action: EUR, in coordination with DS, OBO, Embassy Paris,
and the U.S. Mission to the EU)

Law Enforcement Cooperation

       Ten U.S. law enforcement agencies are represented in the embassy. The Ambassador
exercises his oversight and coordination responsibilities both directly, in meetings with agency
representatives, as well as through the DCM, who chairs the law enforcement working group.

        The regional security officer coordinates working group meetings and is also the conduit
to the French authorities on a variety of matters, ranging from weapons permits to coordination
on protective details for high-level visits. Although the law enforcement working group meets
formally approximately every 6 months, there is an unusually high level of ongoing, informal
cooperation among law enforcement agencies.

       The Ambassador and DCM actively promote cooperation among law enforcement agency
representatives. One law enforcement official indicated that the Ambassador and DCM “have
made clear their expectation that there should be close communication.” Another factor
contributing to unusually close cooperation is the Justice attaché, an experienced former U.S.
prosecutor. Her advice and expertise in both U.S. and French law is valued by all the embassy’s
law enforcement agency representatives. As a first among equals, she reinforces cooperation
through her cross-cutting role.


                                          10
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        Paris is the destination of many high-level visitors. For most of these visits, there is no
confusion about agency roles and responsibilities. However, visits by senior DHS officials often
raise questions about which of the four DHS agencies has the lead on DHS policy issues. The
Ambassador has no designated DHS representative to advise him on cross-cutting issues, such as
on a DHS Cabinet-level visit. The senior DHS representative does not have authority to oversee
or direct the work of the other three DHS representatives. The memorandum of understanding
between the Department and DHS anticipates the appointment of a DHS attaché in embassies
with multiple DHS components to coordinate on policy issues and to serve as a single point of
contact for the chief of mission.

Recommendation 3: Embassy Paris should request that the Department of Homeland Security
designate an attaché with the authority to act as a single point of contact on the full range of
issues handled by that agency. (Action: Embassy Paris)

Economic/Commercial/Environment, Science, Technology, and Health Section

        The overall atmosphere in the U.S.-French relationship, within which substantial
economic, commercial, and scientific activity occurs, has changed significantly since the last
OIG inspection. At that time, public trade disputes involving Airbus and Boeing, significant
differences over the causes of and remedies for climate change, and large political issues flowing
from the U.S. invasion of Iraq poisoned the dialogue. Since then, not only have Airbus and
Boeing figured out how to profit from each other’s successes, but policy differences on a range
of environmental and health issues have diminished markedly. In addition, the further
development of the EU’s role has reduced the number of trade policy issues individual member
states manage bilaterally.

        In 2011, Embassy Paris combined the economic/commercial affairs and environment,
science, technology, and health affairs sections into a single unit headed by a minister counselor.
The intention of this merger was to create a more efficient structure within which to share
personnel and other resources. Although the current staffing level reflects a reduction of three
U.S. direct-hire positions since the last inspection, the section is able to cover topics ranging
from the French economy, industry, and trade policies to Internet, cyber security, and passenger
name record (privacy) issues because its locally employed staff increased by two positions. With
regard to environment, science, technology, and health issues, the main emphases have been on
energy, climate, green technology, health, and preparing for this year’s World Water Forum and
the Rio+20 conference.

        The minister counselor is highly regarded within the embassy. Not only is she
substantively strong, she is a capable manager who makes every effort to safeguard a reasonable
work-life balance for the staff. At times, an unintended impact of her busy schedule is that the
flow of paper within the section is interrupted. She is aware of this issue and is taking remedial
action.

        The section functions well as a team, and the strengths of both U.S. direct-hire and
locally employed staff are complementary. The section led the embassy’s preparations for U.S.
participation in the May 2011 G8 and November G20 meetings that France hosted and President
Obama attended. In addition, during this same period, the Eurozone debt crisis attracted
                                          11
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

numerous senior Department of Treasury officials for consultations with their French
counterparts—often on very short notice. The Fukushima disaster put nuclear safety issues front
and center and generated a wide range of visitors to various segments of France’s well-developed
nuclear industry. Although visits offer embassy officers the opportunity to reach out to new or
established contacts and provide welcome reporting and advocacy opportunities, planning and
supporting so many visitors absorbs significant amounts of staff time.

        As mentioned earlier, Paris Points is the highly regarded daily email summary of the
major political and economic developments in France that the embassy compiles and forwards to
Washington, where it is available to policymakers at the opening of business. Given the fast-
breaking nature of Eurozone crisis developments, the section has put the summary to especially
good use to keep all interested parties in the U.S. Government—many of whom may not have
ready access to cable traffic—informed of French perspectives. Although the section is relatively
small, an analysis of Paris Points during the month of February 2012 revealed that the section
drafted more than 50 percent of the items. During the same month, the daily listing of announced
official visits to Paris indicated the section was the designated lead for some 40 percent of them.

        The section also compiles three other products: France Points Weekly, which is based
on submissions on economic and political developments from the consulates and APPs; a weekly
financial crisis update; and a nightly financial report for the executive office. The section
benefits from a comprehensive SharePoint site where staff can easily retrieve relevant incoming
and outgoing documents. Given the frenetic pace of activity in 2011, the section had less time to
produce many analytical pieces, a condition it fully intends to rectify in 2012.

        Several other Embassy Paris Federal agencies are members of the “economic cluster,” a
weekly meeting chaired by the minister counselor where Department of Energy, Federal
Aviation Administration, Foreign Agricultural Service, Foreign Commercial Service, National
Aeronautic and Space Administration, National Science Foundation, and Transportation Security
Administration representatives share news of recent developments and highlight upcoming
events and visits of mutual interest. This mechanism has facilitated the coordinated advancement
of U.S. interests on topics as diverse as moving food for astronauts through French bureaucracies
to publicizing recent developments in the American use of nuclear energy to French audiences
via the embassy Web site.

         The Secretary’s Economic Statecraft initiative encompasses a wide range of Department
efforts to spur economic growth. The Department of Commerce has the lead in implementing the
National Export Initiative and Select USA for inward investment. In fact, France is 1 of 10
priority markets selected for proactive international outreach on foreign direct investment in
2012. However, the reduced U.S. Foreign Commercial Service presence, which in France is now
limited to Paris, has led to increased business facilitation and commercial support activities by
Department officers, especially at the APPs.

        The Obama Administration has placed significant emphasis on science and technology,
but the embassy’s ability to address such issues has not increased commensurately. The OIG’s
1998 and 2005 inspection reports both discussed the inadequate number of employees devoted to
environment, science, technology, and health issues, but the problem persists. The 2005 report
noted that the unit “clearly does not have enough staff to advance vital U.S. … policy interests.”
                                          12
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

The same report also noted that the environment, science, and technology portfolio is not a good
fit for a FAST officer. Staffing adjustments made in response to the 2005 OIG report were short
lived. In 2005, there were five full-time staff members plus one part-time professional intern in
the unit. The current staff includes four persons: the experienced counselor; an entry-level
officer who has not taken the Foreign Service Institute’s environment, science, technology, and
health course; an office management specialist with good language skills; and an eligible family
member who brought to the position significant relevant experience on environmental issues.
The unit gave up a locally employed staff position in 2010, which resulted in the loss of
institutional memory and French-language fluency. The embassy is planning, however, to
reestablish this position in the near term in an effort to increase the unit’s capacity.

         The entry-level officer will be replaced this summer by another second-tour officer for
the last time. The Department had ceded a mid-level position to the entry-level division a number
of years ago, but there are plans to return the position to the mid-level division in 2 years. The
OIG team supports restoring this position to mid-level assignments. The section hopes, but is not
assured, that it will retain the eligible family member position when the incumbent departs in
mid-2012 but cannot predict whether prospective applicants will have relevant experience. There
is also no guarantee that future office management specialists will possess the same level of
French-language skills as does the incumbent.

Public Affairs

        The embassy’s public affairs team successfully manages the full range of public
diplomacy programs in support of clearly articulated strategic and implementation plans that
address the mission’s key priorities. Section staff has the trust and confidence of the Ambassador
and DCM. The public affairs officer is an active participant in mission planning. He participates
in regular meetings with senior mission leadership and ensures that his staff is informed of
decisions so that it can implement programs appropriately in support of mission goals.

        An experienced senior Foreign Service officer, who previously served in France, the
public affairs officer took charge in fall 2011 after a gap left by his predecessor’s curtailment.
During his first 5 months at post, he has instituted several changes that have been welcomed by
both staff and senior management. Unusually, at a time when experienced mid-grade public
diplomacy officers are in short supply, the public affairs section in Paris has a team of officers
who are all serving in their functional cone, either at or above grade, and fully language
qualified. A large, skilled, well-trained, and experienced locally employed staff provides
continuity and support. This combination of leadership and experience has resulted in balanced
and well-implemented public diplomacy programs across the spectrum of core informational,
cultural, and educational activities.

        Building on the priorities in the Mission Strategic and Resource Plan, the section has
created and regularly updates a viable program implementation plan, ensuring that programs are
targeted, budgeted for, reported on, and effective. The section manages its program budget
effectively and enters program results into the Mission Activity Tracker database regularly. The
section uses a missionwide contact management system to track and engage program alumni.
Although this system is far from perfect, program managers use it with varying success. The

                                          13
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

section is aware of the strengths and weaknesses of the system and is doing the best it can with
what it has.

        The public affairs section works closely with the Franco-American Commission for
Educational Exchange, which runs the Fulbright program. The public affairs officer serves as
cochair for the Fulbright board; the assistant cultural affairs officer is also a commission board
member and serves as Treasurer. Cooperation between the commission and the public affairs
section is close and effective. The French Government recently completed a review of the
binational commission’s programs and gave a ringing endorsement to the work, something that
the French have backed up with their funding commitment, which is at parity with the U.S.
contribution.

        The cultural unit manages the full gamut of speaker, cultural, and exchange visitor
programs. The mission’s International Visitor Leadership Program is well managed and has
input from all elements of the missions as well as constituent posts. Annual grantee selection
slates show attention to regional as well as ethnic and gender diversity. The cultural section has
an aggressive alumni outreach program. A locally employed staff member works full time on
alumni outreach, maintaining an innovative Web site that aggregates material from a variety of
exchange, educational, and cultural organizations throughout France. This “virtual convener”
provides links to 185 Franco-American friendship associations as well as numerous other
organizations of mutual interest.

        The Information Resource Center is part of the information unit. Because the information
unit also handles social media, placing the Information Resource Center in the same division has
resulted in useful synergy. The public affairs section recently rolled out a new outreach tool
called “Ben Franklin’s Paris Blog,” which supplements the section’s previous outreach emails.
The Information Resource Center provides effective support for in-house as well as French client
research requests. The information section carries out core media reporting and translation
functions effectively.

Social Media

        The assistant information officer ably coordinates social media programs. The mission
has conducted a careful analysis of social media markets in France and developed a clear and
reasonable strategy that acknowledges resource demands. Recognizing that social media place a
major demand on staff time, the section has allocated sufficient locally employed staff resources
to update and coordinate Facebook, Twitter, and YouTube sites as well as to maintain the core
Internet Web sites. The mission created a small studio for generating clips of high-visibility
mission guests and speakers that it places on YouTube.

American Corners

        The mission is in the process of opening its first American Corner, in Grenoble, and has
also made a grant to an organization in Lyon to establish an American House. Both proposals
originated with the Lyon APP and were approved by the public affairs section in Paris and by
relevant Washington offices. This bottom-up approach, however, has not addressed several key
strategic questions. Why have an American Corner in France? Where is the best place to put
                                          14
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

one? What are the implications for sustaining costs? What are the supervisory demands on the
APP or consulate that proposed an American Corner? American Corners are more than book
collections; programming is an essential component and places considerable demands on the
element responsible for supervision. In the absence of a strategic approach, the mission cannot
determine whether the current program platform best meets countrywide needs.

Recommendation 4: Embassy Paris should establish a countrywide approach to American
Corners that takes into account their overall place in the mission’s strategic planning and the
staff and resources involved in establishing and sustaining them. (Action: Embassy Paris)

Virtual Presence Post

        Embassy Paris converted a former APP in Lille into a virtual presence post. Without
active engagement, virtual presence posts sometimes become little more than Web sites. The
public affairs section in Paris, however, has kept Lille’s Web site accurate, lively, and up to date;
used Lille as a program venue; and ensured meaningful contact with local audiences. From
October 2010 to the date of the inspection, the Lille virtual presence post hosted approximately
one event a month, including speeches and lectures by both mission staff and U.S. speakers. The
larger question of APPs is addressed in a separate section of this report.

Administrative Unit

          The public affairs section maintains a small three-person administrative unit that manages
grants, monitors the public diplomacy budget, prepares travel and representational vouchers,
generates procurement requests, and liaises with the embassy’s management section. During the
1999 consolidation of the former U.S. Information Agency with the Department, many of these
functions became the responsibility of the embassy’s management section. Although public
affairs sections generally have retained control over grants and other public diplomacy functions
not ordinarily supported by an embassy management section, the Paris vestigial administrative
tail is larger than that at other missions of similar size, and some of this unit’s work duplicates
that of the management section. Because the head of this small unit is normally an eligible
family member, this job turns over every 2 to 3 years. Moreover, because grant management and
other government-specific administrative skills are not widely available in the public sector,
there is usually an extended learning curve before the unit manager is fully up to speed.

Recommendation 5: Embassy Paris should evaluate the work currently being done by the
public affairs section’s administrative unit, either reprogram or abolish duplicative positions, and
reallocate grants oversight work to the appropriate working-level officer. (Action: Embassy
Paris)

        A review of random grants files over the past 3 fiscal years revealed both technical and
program problems. The public affairs section is neither using the required forms to maintain
grant records, nor including designation letters for grants officer’s representatives in the files, nor
consistently closing out grants appropriately (see Department Grants Policy Directives 23, 16,
and 41, respectively). The result is weak management controls for the use of Federal grants
money.


                                           15
                               SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED

Recommendation 6: Embassy Paris should update its open grants files so that they contain all
required documentation, including forms for recording and tracking grants and grantee reports,
and close out open grants appropriately. (Action: Embassy Paris)

        In addition to the technical errors noted earlier, the OIG team questioned the section’s
general approach to grants. In FYs 2009, 2010, and 2011, the section issued 172, 217, and 141
grants, respectively, for both the section and on behalf of the APPs and consulates. Most of these
are small grants for less than $10,000. Many grants appear to be made to individuals or
organizations on an ad hoc basis. Although the amounts are small enough that noncompetition is
not an issue, the process for selecting and approving grantees is not clear.

        Informal Recommendation 2: Embassy Paris should develop a standard operating
        procedure to prioritize issuance of small grants in order to promote greater competition,
        openness, and wider managerial input.

        Although the public affairs section is maintaining and recording grants, it is not closing
grants out properly or managing them effectively. There is insufficient attention to the program
aspects of grants when they are awarded, and no one monitors grantee reports and reminds grants
officer’s representatives of their responsibilities. Administrative support unit staff could assist
with these duties.

Recommendation 7: Embassy Paris should implement a plan for the public affairs section’s
restructured administrative support unit to provide support for small grants and monitor budget
progress and rewrite position descriptions of unit employees to reflect these new responsibilities.
(Action: Embassy Paris)

Public Diplomacy Support to the Multilateral U.S. Missions

         The OIG team noted locally employed staff training and technical grant issues in the
companion reports on the U.S. Mission to the United Nations Educational, Scientific and
Cultural Organization (UNESCO) and the U.S. Mission to the Organization for Economic
Cooperation and Development (OECD). 1 Although each of the three missions has a different
public diplomacy focus, there is still an opportunity for the bilateral mission to play a role in
providing mentoring, training, and technical support to the other two. The OIG team recognizes
that there are three different Department bureaus and three different funding streams involved.
The OIG team also recognizes that the bilateral mission does not have much flexibility to take on
additional tasks. Adding an unfunded mandate to one mission to support other entities is not a
recommendation that the OIG team takes lightly; however, in this case there is a clear benefit to
the Department as a whole. Ideally, the restructuring of the public affairs section’s management
support unit recommended earlier would take into account how the section can help the public
affairs sections of the two multilateral missions.

Recommendation 8: Embassy Paris, in coordination with the U.S. Mission to the United
Nations Educational, Scientific and Cultural Organization, the U.S. Mission to the Organization

1
 Inspection of the U.S. Mission to the United Nations Educational, Scientific and Cultural Organization, Paris,
France (May 2012) and Inspection of the U.S. Mission to the Organization for Economic Cooperation and
Development, Paris, France (May 2012).
                                               16
                                   SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

for Economic Cooperation and Development, the Bureau of International Organization Affairs,
and the Bureau of Economic and Business Affairs, should determine how the bilateral mission
can provide limited training and mentoring opportunities to the public diplomacy programs at the
two multilateral missions and draw up and approve a memorandum of understanding setting out
mutual responsibilities. (Action: Embassy Paris, in coordination with the U.S. Mission to
UNESCO, the U.S. Mission to the OECD, IO, and EB)

Consular Affairs

        Consular operations in France are well run. In addition to the Paris consular section, the
minister counselor for consular affairs ensures consistent application of policies and regulations
for two consulates general, four APPs, and one consular agency, all of which provide limited
American citizens services. The diversity of supervisory structures, level of services provided,
and staffing of the various entities poses management challenges. Consular management will
reorganize consular lines of authority when two mid-level management positions are eliminated
in the summer of 2012.

        The consular section has good relations with the constituent posts, which praised the
section’s expertise and responsiveness. A recently conducted visa services survey recorded
favorable comments.

Consular Management

Staffing

        The consular section has sufficient staff but will be reconfiguring portfolios in the
summer of 2012 with the elimination of two American supervisory positions. The American
citizens services chief position will be combined with the passport and citizenship unit chief
position. The visa chief position will be eliminated, leaving a nonimmigrant unit chief and an
immigrant visa and fraud prevention chief, each reporting directly to the consul general. The
restructuring will correct an out-of-balance ratio of more than one manager for every two entry-
level positions.

         The experienced local staff is customer service oriented. Within individual units, the local
staff is cross-trained on routine functions, but there is insufficient cross-training on the more
complex or specialized tasks. For example, one visa assistant is responsible for the treaty trader
investor visas. During the inspection, this person’s designated alternate was on extended
maternity leave. The dearth of cross-trained backups means that whenever the visa assistant is on
leave, unopened cases build up, causing unnecessary delays in processing.

       Informal Recommendation 3: Embassy Paris should designate, cross-train, and maintain
       adequate alternates for each consular function, especially the most complex portfolios, to
       ensure continuity of service during staffing gaps.

       Locally employed nonimmigrant visa staff members appear to be over graded for the
work that they perform. A review of similar positions at other European posts confirms that most
nonsupervisory or nonspecialized visa assistants are a grade lower than those in Paris. All locally
                                          17
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

employed staff members in the nonimmigrant visa unit rotate through the core functions of
accepting documents, printing visas, uploading applications into the database, and handling
diplomatic and official visa cases. Specialty functions, such as preparing security advisory
opinions, are assigned to specific individuals. A Bureau of Consular Affairs sample position
description states that the FSN-08 grade is appropriate when the incumbent has responsibility for
a high volume of cases, of which the majority are nonroutine. Although many of the current staff
members have the experience to perform at higher levels, most of the actual work they are
performing falls into the routine category.

         The consular section receives visa applicants from nearly every country in the world, but
the majority of those applicants apply for tourist and student visas. More than two-thirds of the
applicants are French citizens; most of them apply for student, tourist, flight crew, Summer
Work Travel, and diplomatic or official visas—none of them complex categories. Only 4 percent
of all cases require special processing. The highly specialized treaty trader and investor cases are
not processed through the regular appointment system but are instead prepared by a visa assistant
at a higher grade level.

        At the end of 2011, the consular section reviewed and updated all locally employed staff
position descriptions to reflect actual responsibilities, taking into account new requirements for
collecting biometric fingerprints and processing electronic applications. The new descriptions,
however, overstate the complexity of the majority of the applications and do not reflect the
percentage of time the visa assistants spend on nonroutine duties. There would be no immediate
financial impact of a downgrade of any visa assistant position because all incumbents can apply
for saved pay; however, over the longer term, savings could be significant.

Recommendation 9: Embassy Paris should revise the nonimmigrant visa assistant position
descriptions to reflect actual responsibilities, determining which are at the journeyman versus
highly specialized level, and submit them to the embassy’s human resources section for
reclassification as appropriate. (Action: Embassy Paris)

Consular Exchange Rate

         The consular section is responsible for setting the official consular exchange rate for the
Euro, an apparent holdover from a time when there was a financial services center in Paris. The
consular exchange rate is normally set jointly by the accountable consular officer and the
financial management officer and should never be lower than the rate used by the U.S.
Disbursing Officer to avoid losing money. The Euro rate is important because it is used by most
EU countries and is also the basis for the CFA franc used in 14 African countries. The Consular
Management Handbook tasks Paris with advising other EU posts of the appropriate Euro rates.
Because any change will affect more than 40 consular sections, the officer responsible for this
task spends several hours each month ensuring correctness. A cumbersome clearance process
lengthens the amount of time it takes to adjust to fluctuations in the Euro. There is no real reason
why this function, which can be done anywhere, should be retained by a busy consular section
that is about to lose two U.S. direct-hire staff.

Recommendation 10: The Bureau of Consular Affairs should assume responsibility for setting
the Euro consular exchange rate. (Action: CA)
                                          18
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Efficiency Measures

        The Nice consular agency accepts passport applications and provides notarial services. A
senior local employee with more than 40 years of consular experience essentially runs the office,
making appointments for the part-time consular agent, who sees applicants on Wednesdays.
Applicants make appointments by phone or in person. Reducing the amount of time the local
employee spends making appointments would allow her to focus on activities commensurate
with her grade level.

        Informal Recommendation 4: Embassy Paris should establish an email address for the
        Nice consular agency and implement a policy that requires consular clients to use email
        as the preferred method of scheduling appointments.

        On its public Web site and in response to telephone or in-person inquiries, Consulate
General Marseille refers all Federal benefits applicants to Nice. The Social Security
Administration funds a five-person Federal benefits unit at Embassy Paris that has responsibility
for providing information and processing claims in France and regionally. The assistant in Nice,
although knowledgeable about Federal benefits, is providing unreimbursed and duplicative
services for customers living in the south of France. The APPs and Consulate General Strasbourg
already forward all Federal benefits inquiries to Paris.

Recommendation 11: Embassy Paris should designate the Paris Federal benefits unit in France
as the sole provider of Federal benefits information and update all public Web sites accordingly.
(Action: Embassy Paris)

        The Marseille consulate general telephone tree is inadequate. Callers who choose the
French information option are referred only to a Web site but are not given the Web site address.
The consular section, even though it is open to the public only 2 days a week, does not have any
public telephone inquiry hours. As a result, callers press any button on the automated options
menu, flooding nonconsular staff with consular inquiries or using the emergency consular
services line to get nonemergency information.

        Informal Recommendation 5: Embassy Paris should revise the Consulate General
        Marseille automated response options menu to provide more detailed consular
        information.

        Informal Recommendation 6: Embassy Paris should establish telephone inquiry hours at
        Consulate General Marseille, publicize them on the Web site, and include them in the
        consulate’s telephone automated options menu.

Space

        The Paris consular facilities are spacious but separated into four nonconnected units. The
small passport unit is divided in half by a corridor(b) (5)                       The consul
general and the office management specialist, as well as a conference room, are two floors above
the rest of the section.

                                         19
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

       The physical layout is not ideal for supervising staff or maintaining a cohesive work unit.
When the two manager positions are eliminated in the summer, there will be sufficient space to
consolidate the units into three areas. The consular section would be reduced by nearly 63 square
meters, decreasing the International Cooperative Administrative Support Services (ICASS) cost.

       Informal Recommendation 7: Embassy Paris should consolidate the consular section
       spaces to improve supervision, create stronger section cohesiveness, reduce the number
       of entrances, and decrease International Cooperative Administrative Support Services
       charges.
       (b) (5)




       Informal Recommendation 8: (b) (5)


Nonimmigrant Visas

       Embassy Paris provides all visa services in France. Although France is a nonimmigrant
visa waiver country, nearly 60 percent of the 58,000 visa applicants are French seeking
nontourist and business visas. Non-French applicants from more than 100 different countries add
complexity to the work.

        Nonimmigrant visa appointments are scheduled through a contract call center, which also
provides applicants with general processing information but does not collect the application fee,
which is paid through a bank. The call center provides daily reports of the following day’s
appointments that, in turn, facilitate uploading of the online applications each evening. Because
applicants do not have to complete the online form before securing an interview time, some
names on the appointment list do not have a corresponding application to upload, nor can the
section be certain that the applicant paid the requisite fee.

       The consular section experiences a no-show rate of approximately 10 percent. According
to Foreign Affairs Manual regulation 9 FAM 41.103 N 10.3, the cases of applicants that fail to
appear should be refused temporarily until they actually apply for their visas. However, because
the consular section cannot be sure that the applicant paid, it does not routinely refuse the
applications. Allowing applicants to schedule appointments before paying fees results in more
open cases and complicates the fee reconciliation process.

Recommendation 12: Embassy Paris, in coordination with the Bureau of Consular Affairs,
should implement a policy requiring the call center to obtain proof of payment of the machine-
readable nonimmigrant visa application fee and a confirmation number from the online
application before scheduling an appointment. (Action: Embassy Paris, in coordination with
CA)




                                         20
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Immigrant Visas

        The immigrant visa unit processed just over 1,100 applicants in FY 2011. Included in that
total were more than 350 diversity visa (lottery) cases from dozens of countries. On March 1,
2012, the unit also began processing all immigrant visas for Portugal. The number of additional
cases should not have a large impact on the one-officer unit but will require creating information
sheets and instructions in Portuguese. Consular management rewrote a vacant visa assistant
position to require both French and Portuguese language proficiency. During the inspection, the
embassy identified a candidate, and a security clearance was pending. In the meantime, a
Portuguese speaker from another section will be available to provide interpretation as needed.

        The unit also provides travel letters for U.S. permanent residents whose green cards have
been lost, stolen, or expired. The unit processes four or five such cases a day. The U.S. Customs
and Immigration Service in Rome provides guidance for and verification of the legal status of
these individuals. Although the Department bills other agencies for such services in accordance
with the Economy Act, the unit does not do so.

       Informal Recommendation 9: Embassy Paris should establish an appointment system
       for routine U.S. Customs and Immigration Service requests to facilitate tracking of actual
       time spent on those cases for reimbursement purposes.

Visas Viper

        The Ambassador’s staff assistant is the designated Visas Viper coordinator. That position
has traditionally been filled by an entry-level consular officer on a 1-year rotational assignment.
Having the staff assistant coordinate the committee facilitates the handling and storing of
classified material. A consular section entry-level officer runs required name checks on any
nominations, but the staff assistant drafts and transmits the monthly cables. The visa chief is the
designated consular representative to the group, and the DCM chairs the Visas Viper meetings.

       The embassy submitted all reports on time for the 12 months preceding the inspection.
However, the submission cables did not note whether the embassy had checked the consular
lookout and support system or whether the embassy had made a potential terrorist entry into the
lookout system. The OIG team discussed with the Visas Viper coordinator ways to include this
information in the future.

        In summer 2012, the staff assistant position will become a regular assignment and no
longer a consular rotation. Additionally, a new mechanism for creating the nomination will make
it more cumbersome for the consular section to pass name check results to a coordinator outside
the consular section. Administrative coordination for scheduling meetings and requesting initial
nominations could remain with the staff assistant.

       Informal Recommendation 10: Embassy Paris should move the Visas Viper coordinator
       function to the consular section for the purpose of drafting submission cables and
       coordinating required name checks.


                                          21
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


American Citizens Services

       The American citizens services unit is divided into two separate divisions: passport and
nationality, and special citizens services. As mentioned earlier, one supervisory officer will
manage both units as part of an upcoming reorganization.

       The passport unit prides itself on its customer service orientation. It opens extra
appointments for children’s passport applications on Wednesdays, for example, when French
schools close early. Staff at the two consulates and the APPs uniformly commented on the Paris
passport staff’s availability at a moment’s notice to provide advice on complex citizenship cases.

        The passport unit has a good mix of experienced staff and newer employees, who have
introduced useful information technology skills. In addition to its regular passport and consular
report of birth appointments, the unit processes a high number of emergency passports and
handles data entry and transmission of mail-in passport applications, APP-accepted cases, and
diplomatic and official passport renewals.

         Marseille also processes passport applications and consular reports of birth abroad, both
for itself and for the Nice consular agency and the Toulouse APP. Occasionally, Paris and
Marseille may have different requirements or procedures for the same service. Although they
consult productively when questions arise, the OIG team counseled both on the advisability of
mutual visits, if resources permit, to identify and resolve any anomalies.

         Marseille has three locally employed consular assistants. All perform essentially the same
functions, although one employee also maintains the Web site, formats the consulate’s biweekly
reports, and serves as the backup systems administrator. Her position is two grades lower than
that of the other two consular assistants. The consulate has submitted a request to the Paris
human resources section for a position description review and reclassification, which the OIG
team supports.

American Aid Society

        The consular section provides office space, telephone, and computer access to the
American Aid Society, a private, nonprofit organization that supplements the embassy’s services
to destitute American citizens. The aid society’s volunteer has an embassy badge, unescorted
access to the consular section, a Department email address, and an embassy telephone line. The
organization has occupied free office space for 20 years without a formal agreement. Prior to the
OIG inspection, the consular section chief prepared a memorandum of agreement to delineate the
duties and responsibilities of the organization. Embassy management has not previously verified
that the use of government funds to provide space and telephone and other services to this
nongovernmental entity is authorized. Clarity on this issue is important, given the liability
implications for the section.

Recommendation 13: Embassy Paris should request that the Office of the Legal Adviser review
the memorandum of agreement between the consular section and the American Aid Society and
determine whether the consular section has authority to provide space and other resources to this
private, nonprofit organization. (Action: Embassy Paris)
                                          22
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Consular Integrity and Antifraud

         France is designated as a low-fraud country. The fraud prevention unit is composed of
one full-time local employee, who is supervised by the immigrant visa unit chief. Most of the
unit’s time is devoted to document verification for nonimmigrant visa cases. Recent validation
studies verified that the overstay rate for Paris-issued visa applicants is very low. Paris is
scheduled to get an assistant regional security officer – investigator for fraud work in the summer
of 2013. Consular management has not yet determined how best to integrate this position into the
consular section, given the low level of fraud and lack of a full-time American fraud prevention
manager counterpart.

Recommendation 14: Embassy Paris, in coordination with the Bureau of Diplomatic Security
and the Bureau of Consular Affairs, should develop specific work requirements and a scope of
work for the new assistant regional security officer – investigator before the employee arrives at
post. (Action: Embassy Paris, in coordination with DS and CA)

American Presence Posts

       Embassy Paris developed the APP concept in 1998. The Department has built on this
base and established APPs in several other bilateral missions. 2 Both the original paper and the
FAM note that trade and public diplomacy are key missions of the APPs in France, followed by
American citizens services. Embassy France currently maintains four APPs in Bordeaux, Lyon,
Rennes, and Toulouse.

        Recognizing the importance of trade promotion when creating the APPs, the mission
placed their supervision and coordination under the minister counselor for economic affairs. In
coordination with Paris-based Department of Commerce colleagues, the economic section
recently hosted a digital video conference with APP and consulate staff to review the basics of
trade promotion. Although the minister counselor attends the monthly video conference meetings
chaired by the DCM with APP officers and organizes semiannual meetings that APP staff attend
in Paris, she has not visited all of the posts in the past 2 years.

        During the 2005 OIG inspection report, the Department of Commerce was funding the
salaries of locally employed staff at two of the APPs and providing all costs for an American
officer at the APP in Toulouse. Since then, the Department of Commerce has withdrawn all
support from the APP program. The Department of Commerce currently maintains a staff of 3
full-time American officer positions and 14 locally employed staff members in Paris, but its
withdrawal from the APPs has resulted in the Department’s picking up the trade banner without
additional funding in order to maintain that leg of the APP tripod.

        Another leg is public diplomacy. APP officers report spending between one-third and
one-half of their time on public diplomacy, and public diplomacy funds pay for half of each of
the locally employed staff positions in three of the APPs and all of the costs of a locally
employed staff member in the fourth. In addition, the public affairs section provides each APP an
average of $20,000 per year to support local projects, mostly through small grants, as well as a

2
    2 FAM 133.
                                          23
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

modest share of the public diplomacy representational budget. There is, however, no formal
supervisory relationship between the public affairs section and the APP officers. Based on the
operative principle “follow the money,” the OIG team questions the appropriateness of the public
diplomacy section’s funding of staff and programs when the minister counselor for public affairs
has no direct supervisory role. The public affairs section has already moved in the direction of
providing greater support and accountability to public diplomacy activities in the APPs by
designating a member of the section as the APP coordinator. The OIG team endorses this
change, which both strengthens program management controls and provides needed technical
assistance.

Recommendation 15: Embassy Paris should require the public affairs officer to submit formal
input to the employee evaluation reports of the American presence post officers and incorporate
this responsibility into the public affairs officer’s work requirements. (Action: Embassy Paris)

        The APPs provide limited consular services, including accepting passport applications
and reports of birth abroad and performing notary services. Each APP provides consular services
by appointment only and collects fees by credit card. None of the APPs has the necessary
consular software to process passports or consular reports of birth, but they do accept and
conduct a preliminary review of passport and report of birth cases based on paper submissions.
The APPs then forward completed passport and report of birth applications to either Paris or
Marseille for data entry, adjudication, mandatory name checks, and final processing. On rare
occasions, APP staff requests that an applicant return to the APP’s office or go to Paris, based on
results of the name check. Notarial services do not require any computer applications and are
completed on site.

        The APPs were originally intended to provide only emergency American citizens
services; 3 however, officers at some of the APPs say that they spend as much as 25 percent of
their time on consular work. Fielding, referring, or forwarding visa questions to the embassy also
consume some portion of local staff time. (b) (5)

                       Officers at APPs report that applicants appreciate the convenience of
being able to obtain services close to home, (b) (5)



        Each of these four APPs has its own mix of program goals and objectives; moreover, the
success of each of these one-officer operations depends on the energy, vision, skill set, and
resourcefulness of the incumbent. The OIG team recognizes the vital importance of “being there”
that gave rise to the APP concept; however, there have been several changes in APP protocols
since the last inspection, notably the withdrawal of Foreign Commercial Service support. The
last evaluation of the APPs in France was conducted in 2006. 4

Recommendation 16: Embassy Paris should conduct a thorough cost/benefit analysis of each
American presence post that involves all stakeholders in the posts’ work and make

3
    2 FAM 133.2 (5).
4
    06 STATE 114035.
                                          24
                              SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

recommendations to the Department of State about whether continued operations are justified.
(Action: Embassy Paris)




                                        25
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Resource Management
                                    U.S.       U.S.       Foreign
                                                                     Total   Total Funding
           Agency                  Direct-    Local-      National
                                                                     Staff     FY 2011
                                  Hire Staff Hire Staff    Staff
Department of State
Diplomatic and Consular                 113         10          67     190     $19,655,611
Programs
ICASS                                    13         14         217     244     $41,646,100
Public Diplomacy                          5          3          24      32      $4,468,375
Diplomatic Security                       3          3           1       7      $6,265,706
Marine Security Guards                   12          0           4      16        $392,130
Representation                                                           0        $152,500
OBO                                       1          1                   2     $10,611,918
Africa Budget Office                                             5       5        $870,900
African Regional Services                 2                     19      21      $4,166,323
Financial Support and Training            1                     15      16      $2,083,000
Office
Department of Agriculture
Foreign Agriculture Service               2                      3       5        $621,397
Animal and Plant Health
Inspection Service
Other (Agricultural Research              2                     19      21
Service, European Biological
Control Laboratory)
Department of Defense
Defense Attaché Office                   21          1           7      29      $2,545,255
Office of Defense Cooperation             3          3           1       7
Other – Exchange Students,               39          0           0      39
Olmstead Scholars, FAOs
Other – Department of Defense            16          1           0      17
Department of Energy                      1          0           0       1
Department of Justice
Drug Enforcement                          5          0           1       6
Administration
Federal Bureau of Investigation           1          1           0       2
Legal Attaché Office                      7          0           0       7
Other                                                                    0
Department of Homeland
                                       26
                           SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


 Security
 Transportation Security                     1            1           0        2
 Administration
 Coast Guard                                                                   0
 Customs and Border Protection               5            0           0        5
 Container Security Initiative               2            0           0        2
 Immigration and Customs                     3            1           3        7
 Enforcement
 Secret Service                              6            2           2       10
 Other                                                                         0
 Foreign Commercial Service                  3            0         14        17       $2,409,060
 Department of
 Transportation
 Federal Aviation                            1            0           1        2
 Administration
 Social Security                                                      7        7
 Administration
 Centers for Disease Control                1             0          0        1
 American Battle Monuments                 31             0        188      219
 Commission
 National Science Foundation                 1            1           1        3
 National Aeronautics and                    1                        1        2
 Space Administration
 Internal Revenue Service                    2            3                    5

 Totals                                   304           45         600      949      $95,888,275

Note: Funding is included only for agencies whose budgets are administered by the Department.
Funding costs do not include U.S. direct-hire salaries.

Management Overview

       The TMM office provides administrative support to all three missions in France. The
OIG 2005 inspection report for the three missions recommended that their individual
administrative support operations be merged, which led to the September 2005 establishment of
the TMM office. All three missions now subscribe fully to the ICASS platform managed by the
TMM office. Partly as a result of this merger, and partly due to outsourcing and automation of
administrative services, administrative support staff has decreased by approximately 17 percent
from 2006 to the present number, despite a client base increase of approximately 7 percent.

       The TMM does a good job of supporting a large and complex trio of diplomatic missions
and copes well with the heavy official visitor load. The minister counselor’s considerable
experience and familiarity with the host country environment have facilitated the section’s
                                                 27
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

success in advancing a number of the mission’s top goals. The single biggest challenge in the
coming years will be succession planning for the mission’s aging senior locally employed staff,
combined with continued rightsizing by attrition as locally employed staff members retire.

        The TMM platform in Paris provides the full range of administrative support services to
the consulates general in Marseille and Strasbourg. The consular officer in Marseilles, who has
previous management experience, directs basic administrative operations in addition to his
consular functions. He is assisted by a locally employed administrative assistant. Management
and staff from TMM travel to Marseille occasionally, but the consulate staff would welcome
more frequent visits in both directions and across all functions to promote a sense of common
purpose.

       The Strasbourg administrative assistant and TMM collaborate well. The motivated
management staff in Strasbourg also includes a secretary/receptionist/driver and the consul
general’s driver.

Real Property

Office Facilities

       The embassy has addressed a number of major property issues since the 2005 inspection,
the most significant being completion of the post-September 11 plan to improve the security of
U.S. Government personnel and facilities in Paris through colocation and security upgrades. The
three U.S. missions, which were scattered over several sites in 2004, are now consolidated in the
embassy chancery, one floor of a nearby office building (called the NEO), and in the leased
Raphael building near the OECD. The embassy receives high marks for accomplishing this
complex undertaking. Space in all three locations is attractive, functional, and well maintained.
The embassy also leases and operates a remote warehouse.

       Embassy Paris is a member of the League of Green Embassies and has embarked on an
ambitious plan to reduce its carbon footprint through facility upgrades via an energy savings
performance contract in coordination with OBO.

NEO Building Cost Sharing

        During the survey phase of the inspection, the OIG team learned that as part of the space
consolidation plan, Department offices displaced some other agencies in the chancery, requiring
that they relocate to the leased NEO building. The displaced agencies have been paying
considerable fit-out costs for their spaces as part of the annual rent. Per 15 FAM 164, when one
agency’s activities are moved to accommodate another’s activities, the displacing agency is to
pay for the fit out of the displaced agency’s new space. TMM has brought this issue to OBO’s
attention.

Recommendation 17: The Bureau of Overseas Buildings Operations, in coordination with the
Bureau of Resource Management, should review the history of the forced moves of other
agencies from the chancery to leased accommodations, determine whether fit-out costs at the
NEO building were allocated either in accordance with regulations or per any formal agreement
                                         28
                             SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED

at the time of the move, and take appropriate remedial action, if required. (Action: OBO, in
coordination with RM)

Hotel de Talleyrand – George C. Marshall Center

        The U.S. Government-owned Talleyrand building, which previously housed the consular
section and other offices, is a historical property listed on the Secretary’s Register of Culturally
Significant Properties. It was the venue for the signing of the Marshall Plan following World
War II. In August 2006, the Department entered into a lease agreement with a prominent
American law firm, which now occupies most of the building. The most historically significant
and decorative rooms, which were restored through private contributions, remain under embassy
control. They house the George C. Marshall Center, which contains photographs and other
memorabilia related to the Marshall Plan. As an integral part of the embassy’s cultural heritage
program, the Ambassador has opened the Marshall Center and his official residence for tours by
family and contacts of embassy personnel.

        The Marshall Center is also available for conferences and representational and private
events that promote U.S.-French ties and understanding. The embassy receives reimbursement
for actual maintenance, local guard, and other costs related to these events. In a recent
development, the embassy requested Department approval to charge a capital fee for such use,
which will defray the cost of the unique maintenance requirements of the Marshall Center’s
period furniture, furnishings, and decorative finishes. The inspectors support this proposal. The
embassy’s overall cultural heritage program is addressed in a separate section of this report.

        Several clauses in the lease with the tenant of the Talleyrand building restrict how the
embassy may use the Marshall Center. For example, guests can use the grand staircase only
during formal events, relegating all others to a narrow and undistinguished stairwell, and only the
tenant or lessor can sponsor events at the Marshall Center. The Department is reviewing a
proposal that would enable the embassy to expand the use of the center and charge a capital fee
to be applied toward its unique maintenance requirements.

Residential Property

      The TMM staff maintains a total of five government-owned residences for the three
ambassadors in Paris and their three DCMs. 5 These properties are beautiful and well maintained.

        The bilateral Ambassador’s residence, like the Talleyrand building, is on the Secretary’s
Register of Culturally Significant Properties. This large residence has numerous elegant
reception rooms for entertaining and a large private apartment. The Ambassador, in collaboration
with OBO, has secured donations for the maintenance and renovation of this historical property.
The Jefferson bedroom, used by high-level visitors including the President, and the ballroom
theater system were renovated recently through donations, and a project to restore a main
reception room is in the planning stages. The TMM staff is also working with OBO on the
renovation and upgrade of the outdated electrical system.


5
    Two of the DCMs are a couple and share a residence.
                                                29
                                    SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

        The U.S. Government owns several other residential properties and 2 residential
complexes and leases 178 residential units. Although central Paris apartments typically have
great charm, they are in most cases quite old and require constant maintenance. Employees,
however, seem willing to endure these shortcomings for the experience of living in central Paris.
Most leased properties are rented from institutional owners such as banks, insurance companies,
and pension funds, which reduces dependency on individual landlords who are less attuned to
embassy maintenance expectations.

       Boulogne and Neuilly Housing

        The Department constructed the gated Boulogne and Neuilly complexes in 1954 to U.S.
specifications. The five-story buildings have elevators, good storage, and well-kept common
recreational areas. Both complexes are on the bus routes of the schools attended by American
dependent children but are a relatively long commute from central Paris where most employees
work.

        The two complexes tend to be the most difficult housing to assign due to their distance
from central Paris. The apartments, however, are spacious, bright, have plenty of closets and
storage, and are in quiet suburban neighborhoods. They are also fully furnished, whereas leased
apartments are provided with appliances and draperies only, and employees must ship their own
furniture.

       Armed Forces Network

        At the end of FY 2011, TMM spent $44,000 to repair/upgrade the Armed Forces
Network television service at the Boulogne and Neuilly housing complexes. The system was
originally installed at the personal expense of former compound residents. TMM justified the
expense as an attraction for new employees contemplating assignment to the two complexes. Per
5 FAM 570 d. (1), regional bureaus must approve installation of television and related services in
U.S. Government facilities, and the occupants must pay recurring charges for personal use.
Similarly, the embassy installed an Armed Forces Network system at the consul general’s
residence in Strasbourg. There is no record that the embassy requested approval for either
installation.

Recommendation 18: Embassy Paris should request retroactive approval from the Bureau of
European and Eurasian Affairs for the installation of Armed Forces Network service at the
Boulogne and Neuilly complexes and the consul general’s residence in Strasbourg and
implement procedures for collecting payment from occupants for recurring charges for personal
use of this service. (Action: Embassy Paris)

Marseille

       The U.S. Government owns two properties in Marseille—the consulate general office
building and the consul general’s residence. The consular officer resides in a furnished short-
term leased apartment, and the two U.S. Navy employees are on military overseas housing
allowance. The old office building, which was purchased in 1955, is in the congested center of

                                         30
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Marseille. On-site parking for both official vehicles and the public is nonexistent, and the
consulate sedan and van are parked in an adjacent parking garage.

        Although the office building retains a certain Mediterranean charm, it is in need of
significant refurbishment. An electrical upgrade is due to be completed by summer 2012.
Consulate staff complain of difficulties in identifying reliable maintenance contractors, which
often stalls projects. The consulate general would welcome more support from TMM functional
specialists on more complicated procurement and maintenance requirements. This lack of
attention is most notably reflected in the relatively tired state of the consulate’s interior spaces
and furnishings. The inspectors also heard the familiar refrain of there being little money to make
improvements to the consulate.

Recommendation 19: Embassy Paris, in coordination with the Bureau of Overseas Buildings
Operations, should develop a comprehensive refurbishment plan for Consulate General
Marseille’s interior and make improvements a priority as funds become available. (Action:
Embassy Paris, in coordination with OBO)

        Because consulate staffing has diminished over the years, the office space allocations are
now excessive. Individual offices are quite large, and there are a number of vacant rooms. Per 15
FAM 512.1 a., posts must review U.S. Government-owned properties annually to identify any
that exceed requirements or are uneconomical to retain. This review then forms the basis for a
formal determination by the Department of whether to retain a property.

Recommendation 20: Embassy Paris should report the underutilization of the consulate general
building in Marseille in accordance with Department of State regulations. (Action: Embassy
Paris)

        The consul general’s residence, purchased in 1947, is a lovely property with a large
terrace and garden overlooking the sea. It is suitable for the consul general’s representational
needs. The property also has a cottage with two small apartments that are used by Department
interns assigned to Marseille. The house is well maintained, and a full electrical upgrade project
is under way.

Strasbourg

        The centrally located U.S. Government-owned office building is meticulously
maintained. The office space, all on the ground floor, is more than adequate for the consulate’s
current staffing and is attractive and well furnished. The second floor has two apartments, one of
which is available for use by official visitors; the other serves as a digital video conference room.
Until recently, one of the apartments was occupied by an officer studying at the Ecole Nationale
d’Administration prior to a regular assignment to the embassy. There are two staff rooms with a
bath on the top floor used by Department interns. An OBO-funded roof replacement project was
completed in 2005. Major security upgrades have been concluded as well.

        The consul general’s residence and garden are perfectly suited for representational
entertaining. The property is well maintained and was recently refurnished. A project to replace
and upgrade the electrical system is in progress. Embassy Paris has proposed to the Department
                                          31
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

that the consul general’s residence be sold and the top two floors of the consulate be converted to
a large apartment for the consul general. The Policy and Program Implementation section of this
report includes a recommendation about deferring the decision on the sale of the residence until
the Department makes a decision on the future of the U.S. presence in Strasbourg.

Interagency Housing Board

       The interagency housing board does a good job of assigning housing to employees based
on family size, rank in position, stated preferences, and availability of government-owned units.
The board is obligated to assign Department and other foreign affairs agency personnel to
government-owned housing before other agency staff, so at times the board has no choice but to
make assignments to the less popular Boulogne and Neuilly complexes to avoid incurring
unnecessary lease costs.

        Although employees expressed concern that the previous interagency housing board
made decisions based on insufficient information received from the housing office, the new
housing management team and housing staff are making a concerted effort to be more
transparent and customer oriented in proposing assignments. The process is improving, as
evidenced by the most recent meeting of the new housing board, where members lauded the
housing staff for providing a complete packet of information well in advance. The inspectors did
find, however, that some housing board members are not fully briefed on their responsibilities
and pertinent policies. The board also has no designated vice chair, resulting in confusion as to
who is in charge in the chair’s absence.

       Informal Recommendation 11: Embassy Paris should establish a training program for
       new members of the interagency housing board.

       Informal Recommendation 12: Embassy Paris should designate a vice chair of the
       interagency housing board.

Marine Security Guard Quarters/Embassy Parking Lot

        The Marine security guard detachment is housed in one of the apartment buildings at the
Boulogne complex. When the detachment relocated to Boulogne from central Paris years ago,
the building underwent modifications to accommodate the 26 Marines assigned to Paris at that
time. The contingent is now down to 12, and the large and well-maintained quarters are
underutilized. The Department is reviewing the embassy’s proposal to construct a new Marine
security guard residence on the embassy parking lot adjacent to the Ambassador’s residence and
in close proximity to the chancery. In 2005, an effort to sell the parking lot failed due to the
buyer’s inability to get zoning approval. Beginning in 2010, the embassy mounted a successful
legal argument paving the way for the construction of a staff residential building that would
showcase the latest American green technology. The relocation of the Marines to this new
building also would allow for reconversion of the Boulogne building to staff apartments, which
in today’s market would save the U.S. Government more than $500,000 in annual rent. The
project would also improve significantly Marine reaction time to an embassy emergency; allow
for construction of badly needed underground parking for official vehicles; and boost the morale

                                          32
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

of the Marine security guard detachment, whose current residence is isolated from central Paris.
The inspection team supports this project.

Living Quarters Allowance Oversight

        Several agencies under chief of mission authority assign staff to duty locations outside
Paris. For example, there are dozens of Department of Defense (DOD) personnel on various
exchange programs throughout France. Personnel receive either a civilian living quarters
allowance or a military overseas housing allowance from their respective agencies to defray the
cost of leased housing and utilities on the local economy. Military personnel receive their
allowances directly from their respective commands, so TMM is not involved with payments.
Neither the TMM housing office nor the regional security office inspects these privately leased
properties to ensure that the lease protects the interest of the employee, complies with space
standards as required by 15 FAM 236, and meets security and safety guidelines as required by 15
FAM 263 e. Embassy Paris has experienced logistical and financial impediments to supporting
U.S. Government employees under chief of mission authority at remote locations. However, the
Ambassador and the single real property manager at post have responsibility for ensuring proper
oversight of all nonmilitary properties in France leased or owned by U.S. Government
departments and agencies.

Recommendation 21: Embassy Paris should implement a plan to bring all residences leased by
employees under chief of mission authority or funded with U.S. Government allowances into
compliance with U.S. Government space, safety, and security standards for France. (Action:
Embassy Paris)

       Informal Recommendation 13: Embassy Paris should review all residential housing
       leases for employees under chief of mission authority and modify the wording as
       necessary so that the lease agreements contain the standard language that the Bureau of
       Overseas Buildings Operations has approved for France.

General Services Office

         The general services office staff includes a supervisory general services officer and a
first-tour assistant general services officer. The third general services officer position recently
became vacant and will remain so until fall 2012. This staffing gap will place a considerable
burden on the other two officers as they prepare for the summer housing cycle, and the embassy
is requesting temporary duty assistance. (See the Management Controls section for additional
information about the impact of this staffing gap.) The office also includes two locally employed
ombudsmen, who liaise with the housing office on behalf of the tri-mission community. The
inspectors identified several management control weaknesses that are discussed in that section of
the report.

Procurement

        The procurement staff is well trained in Federal acquisition regulations and has
transitioned fully to the Web-based Integrated Logistics Management System and procurement
and contracting software. The embassy makes use of bulk purchase agreements wherever
                                          33
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

possible and participates in the government credit card program. The three general services
officers and the procurement supervisor have contracting warrants of $250,000 each. The
procurement employees are isolated and spread among numerous office spaces, which hinders
internal communications and teamwork. Responsibilities among the locally employed staff
members are well defined, but backup duties are less clear and not assigned based on functional
expertise.

       Informal Recommendation 14: Embassy Paris should designate formal backup
       relationships in the procurement section and provide cross-training where appropriate.

        TMM recently designated the financial management office as the designated billing
office to ensure proper internal controls. Nonetheless, the responsibility for matching an invoice
with the purchase order and receiving report still lies with the procurement section. This
arrangement is a clear internal control weakness and is addressed fully in the Management
Controls section of this report.

       The procurement agent responsible for ordering cellular telephones for official use
receives and distributes cell phones and maintains cell phone inventory records. He also holds a
stock of cell phones for use by temporary official visitors. Per 14 FAM 411.2 d., inventories of
goods should be received and maintained separately from the procurement function. In Paris, the
information management office already manages the inventory of official BlackBerry devices
but does not manage the cellular phone inventory, which is a management control weakness.
(See the Information Technology section of this report for a related recommendation.)

Recommendation 22: Embassy Paris should transfer responsibility for the management of the
cellular phone program from the procurement section to the information management office.
(Action: Embassy Paris)

Property, Warehouse, and Supply Chain Management

        The TMM property management section in Paris performs effectively. During the
inspection, the property office completed annual inventories for all office facilities and official
residences in France. Inventory discrepancies, where they existed, were well within guidelines.

        The off-site nonexpendable property warehouse is well organized and meticulously
maintained. The Ambassador and DCM residences and the two government-owned apartment
complexes are the only fully furnished properties, so there is no need to maintain large stocks of
furniture. In an effort to shorten the supply chain and further reduce inventories, the property
team has taken advantage of the Department’s just-in-time residential furniture program.
Recently, TMM began procuring all major appliances on the local market.

       In 2011, TMM joined the Department’s expendable supplies contract with Staples. Tri-
mission offices and agencies now order their office supplies directly on the Internet with their
government credit cards for door-to-door delivery. As a result, TMM has been able to free up
valuable store room space and reduce positions.


                                          34
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

       A number of valuable works by American artists donated by the Foundation for Arts and
Preservation in Embassies are hanging in the private family quarters, rather than in the
representational areas, of some of the ambassadorial residences in Paris.

       Informal Recommendation 15: Embassy Paris should confirm with the Bureau of
       Overseas Buildings Operations that it is appropriate to place official artworks donated by
       the Foundation for Arts and Preservation in Embassies in the private family quarters of
       the ambassadorial residences.

Customs and Shipping

        In recent years, the customs and shipping unit has struggled to maintain high customer
service standards due to staffing shortages. Despite these difficulties, the unit continues to
receive good marks for service. The staff has transitioned well to the introduction of the more
efficient International Government Bill of Lading shipping method, whereby shipments are
booked door to door rather than through several intermediaries. TMM uses five shipping
contractors, and the contract is rebid every 5 years. DOD shipments pose unique challenges. All
DOD personnel under chief of mission authority at other missions arrange their shipping through
a specialized DOD shipping organization. In France, the TMM shipping section serves that
purpose, requiring that the shipping staff be fully versed in DOD shipping regulations.

        The shipping section is also responsible for the registration of official vehicles. The
workload is significant; the American Battlefields Monument Commission alone has 60 vehicles
countrywide, for example. Shipping also assists newly arrived employees with registering
personal vehicles and obtaining license plates. Employees provide the shipping clerk with cash,
which he holds in his file cabinet and uses to pay the vendor upon delivery of the private license
plates. However, the clerk is not an official subcashier and therefore is not authorized to hold
funds for which he is then personally accountable.

Recommendation 23: Embassy Paris should establish an appropriate procedure for handling
funding for the purchase of employees’ personal license plates. (Action: Embassy Paris)

Motor Pool

        Motor pool operations are generally effective, most notably in the area of high-level
visitor support. As a part of the embassy’s greening initiative to reduce its carbon footprint,
TMM has purchased four U.S.-manufactured electric vehicles for use in Paris and at the
consulates general. Because taxis and public transportation are readily available in Paris, TMM
is making an effort to discourage staff from using scarce motor pool resources for routine official
transportation. Nonetheless, in response to calls that the motor pool be more responsive to tri-
mission needs, a working group undertook a thorough analysis of motor pool operations in 2011.
The group’s findings revealed that, although motor pool refuses very few legitimate requests for
vehicles, there were areas for improvement that TMM has taken steps to address. For example,
the embassy cashier now sells metro tickets for official use; official documents are delivered
daily to the Ministry of Foreign Affairs and UNESCO; and transportation of ICASS-subscribing
agency staff now has a higher priority.

                                          35
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

       The motor pool supervisor is working to modernize and automate motor pool operations.
Employees must use eServices to submit requests for vehicles, and all drivers now have smart
phones. She is also updating and validating the Integrated Logistical Management System
database to ensure that vehicle inventory, mileage, and maintenance records are correct. Drivers
use credit cards for gasoline purchase that are vehicle specific, which allows TMM access to
important management control information.

       Motor pool records indicate that drivers are generally adhering to the regulation that they
not work more than 10 hours per day to ensure the safety of passengers. However, in a few cases
overtime has been excessive; one driver incurred more than 1,000 hours of overtime in 1 year.
This practice not only poses a safety hazard but also is an inefficient use of U.S. Government
funds.

Recommendation 24: Embassy Paris should review all excessive driver overtime and reallocate
resources to keep overtime costs at a minimum. (Action: Embassy Paris)

        The TMM motor vehicle policy addresses the potential personal liability of nonofficial
drivers, or incidental operators, who use U.S. Government vehicles for other authorized uses.
The policy does not address an employee’s potential personal liability in a U.S. or foreign court
for damages by a host country or third-country national injured in an accident, per 14 FAM 433.5
a. and b.

       Informal Recommendation 16: Embassy Paris should amend its motor vehicle policy to
       inform incidental operators of their potential personal liability for damages that may be
       awarded by a U.S. or foreign court.

        Passengers do not sign their trip tickets consistently in accordance with tri-mission motor
vehicle policy M2011-019, dated October 2011, nor do drivers enforce the requirement. As a
result, motor pool records are incomplete, and it is difficult to confirm authorized vehicle use.

Recommendation 25: Embassy Paris should enforce tri-mission policy requiring that passengers
in U.S. Government vehicles sign a trip ticket following each trip. (Action: Embassy Paris)

       In 2002, the regional security officer determined that the chauffeurs for the three
ambassadors require knowledge, skills, and abilities of a security-related nature that were not
addressed in position classification standards at that time. As a result, five current and former
ambassadorial drivers were promoted and given the title of security guard/chauffeur. This title is
a misnomer and no longer a distinguishing feature because all embassy drivers are given
defensive driver training and required to be alert to any potential hostile action against U.S.
Government employees or property.

Recommendation 26: Embassy Paris should cease giving ambassadors’ drivers the title of
security guard/chauffeur. (Action: Embassy Paris)

       Four armored vehicles used by the three ambassadors and the two consuls general have
been replaced, and the older vehicles are awaiting disposal. Both TMM and the regional security

                                          36
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

office want to retain the older vehicles for their useful life as backups for high-level visits.
Premature disposal of these vehicles deprives the mission of a valuable asset.

Recommendation 27: Embassy Paris should submit a request to the Bureau of Administration
and the Bureau of Diplomatic Security for formal authority to retain the four armored vehicles
scheduled for disposal. (Action: Embassy Paris)
       (b) (5)                                                      (b) (6)


                   The mission has also imposed strict rules on the number of hours drivers can
work for both safety and funding reasons. The relocation of maintenance shops from a remote
site to the chancery reduced the number of available parking spaces, resulted in closure of the car
wash, and displaced the drivers from their down room. The dispatcher and 13 drivers are
squeezed into small cubicles in a cramped space resembling a call center. TMM is aware of these
issues and is addressing them through more consistent and open communication and targeted
counseling.

        Informal Recommendation 17: Embassy Paris should identify appropriate space in the
        chancery as a chauffeur down room.

Visitors Support Unit

        TMM recently merged the executive support unit, established in 2009 to relieve control
officers of the burden of coordinating visit logistics, with the traditional travel and visitors unit.
Both units are operating effectively; however, overlapping responsibilities has at times led to
misunderstandings and duplication of effort. The volume of travel and visits to Paris (52,834
room nights booked for 9,341 official visitors in 2011) leaves little room for error.

        The new one-stop-shop visitors support unit provides the full range of travel services to
travelers and control officers. The unit also oversees the work of the tri-mission travel
management contractor, Carlson Wagonlit Travel, and monitors all premium class travel.
Recognizing that the ultimate success of the combined unit requires a clear definition of the
organizational structure and staff responsibilities, TMM has updated and reclassified all unit
position descriptions.

        The visitors unit negotiates arrangements with hotels for official visitors, including rates
for the coming year. The visitors unit also has a role in defining accommodation requirements,
but per Foreign Affairs Handbook regulation 14 FAH-2 H-131 a., only a designated contracting
officer can request proposals and negotiate on behalf of the U.S. Government. Because the staff
of the visitors unit has no contracting authority, it is inappropriate for the unit to perform this
function

Recommendation 28: Embassy Paris should transfer responsibility for negotiating arrangements
with hotels from the visitors unit to an authorized contracting officer. (Action: Embassy Paris)




                                           37
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Print Shop

        The TMM print shop received the highest customer satisfaction scores of any ICASS
service provider. The shop’s three staff members have stayed ahead of the curve on new
technologies, are trained on Adobe InDesign software, and create a panoply of complex
products. The print shop outsources jobs requiring unique equipment, such as extra-large posters
and banners.

       The print shop supports the consulates and APPs as well as other agencies under ICASS.
The print shop supervisor tracks workload counts through an in-house software application. As
new technologies further streamline the printing process and with targeted outsourcing, TMM
may find that the print shop can function with two employees in the future.

Facilities and Safety, Health, and Environmental Management

         The facilities management office provides effective support to the three missions in Paris,
the consulates general, and the APPs. A facilities management officer, who has been on
temporary duty in Paris since July 2011, leads the section. A permanent facilities manager will
arrive in July 2012. In 2010, the facilities section, formerly part of general services, became an
independent unit reporting directly to TMM management. Despite some early reorganization
strains, the relationship between facilities and other general services sections has improved, as
reflected in the more inclusive weekly meetings to coordinate housing make readies for new
arrivals.

       The mission’s occupational safety and health committee last met in December 2011.
Chaired by the DCM, the committee discussed recommendations from the 2008 Office of Safety,
Health, and Environmental Management report. The inspection team reviewed the mission’s
compliance with the report’s recommendations and found that virtually all have been closed.

       In addition to directing maintenance and construction projects and providing routine
maintenance for government-owned buildings, the facilities office oversees the cultural heritage
program.

Cultural Heritage Program

       The cultural heritage program was established to protect and maintain the large inventory
of high-value fine arts and other items of cultural significance distributed among 16 locations in
France. The embassy and OBO’s residential design and cultural heritage division jointly
administer the program.

        OBO funds the salary of a part-time cultural heritage asset manager—one of four in the
world—who oversees inventory and restoration. The asset manager works with local antique
dealers and auction houses to identify period pieces that would augment the collection. More
than 2,000 individual items have been inventoried, of which 900 are located in the bilateral
Ambassador’s residence. A separate secure warehouse storage area contains the small inventory
of heritage items not in use or awaiting restoration. OBO sometimes draws on this warehouse
stock to augment collections at other U.S. embassies.
                                          38
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        The cultural heritage program was placed under facilities management section oversight
due to the section’s close involvement with the major multiyear restoration at the Talleyrand
building. Although this relationship improves coordination for the maintenance of heritage
buildings, placing the program under the purview of the general services section will align the
program with those responsible for inventories, storage, and procurement of restoration and
repair services.

Recommendation 29: Embassy Paris should place the cultural heritage program under the
direction of the general services officer. (Action: Embassy Paris)

Management of the George C. Marshall Center

        The George C. Marshall Center at the Talleyrand building is an integral part of the
embassy’s efforts to promote the U.S.-French relationship. The chief of staff at the bilateral
Ambassador’s residence and the director of the center manage docent tours and event
coordination. Both these employees are part of the Ambassador’s official residence household
staff. Department Standardized Regulations 411d. define “household staff” as a person employed
to perform household duties at the official residence. Although the Marshall Center director does
not perform household duties at the residence, the position is funded as an official residence
expense, which is an inappropriate use of these funds.

Recommendation 30: Embassy Paris should determine an appropriate direct-hiring mechanism
for the George C. Marshall Center director and terminate the incumbent’s employment as a
member of the Ambassador’s official residence staff. (Action: Embassy Paris)

        The chief of staff has the appropriate designation as a member of the Ambassador’s
official residence staff, but he is not a government employee and cannot be involved directly in
the management of the Marshall Center’s operations, which is an inherently governmental
function. A direct operational relationship between the bilateral Ambassador’s official residence
staff and the Marshall Center is not appropriate.

Recommendation 31: Embassy Paris should exclude the official residence chief of staff from
any operational oversight of the George C. Marshall Center. (Action: Embassy Paris)

Recommendation 32: Embassy Paris should place operational oversight of the George C.
Marshall Center and supervision of its director under the tri-mission management section.
(Action: Embassy Paris)

        The Marshall Center is a well-established venue for official representational events and is
also used for events by private groups that reimburse actual costs. The center director has defined
and implemented a process for authorizing outside events, including TMM vetting for possible
conflicts of interest. TMM also provides outside sponsors of events at the Marshall Center, as
well as at the bilateral Ambassador’s residence, with an advance list of all anticipated costs,
including staff overtime, security, and janitorial services. The center director and the
Ambassador’s French residence manager sign agreements with sponsors for use of their
respective facilities; however, neither the center director nor the residence manager has the U.S.
Government contracting authority required by 14 FAH-2 H-131 a. to perform this function.
                                          39
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 33: Embassy Paris should remove contract signing authority from the George
C. Marshall Center director and the Ambassador’s residence manager and identify an authorized
contracting officer to sign future agreements. (Action: Embassy Paris)

       The embassy finance office manages payments by outside groups for expenses related to
events at the Ambassador’s residence and the Marshall Center; payments are deposited into a
commercial checking account at a local bank. Two locally employed staff members have check-
signing authority on that bank account, voucher all payments, and control the check stock.
Although the financial management officer approves payments, the locally employed staff
members are also responsible for reconciling bank statements. This lack of separation of duties is
a management control weakness.

Recommendation 34: Embassy Paris should designate an employee other than the signatories to
the group event account to reconcile the bank statements upon receipt and to control the check
stock. (Action: Embassy Paris)

        The embassy was not able to document that the Bureau of Resource Management and
Office of the Legal Adviser had approved this nonstandard arrangement for processing funds for
outside group events through a commercial bank account instead of within the Department’s
financial management system. Without the proper safeguards in place, these funds could be
subject to mismanagement and fraud.

Recommendation 35: Embassy Paris should submit a request to the Bureau of Resource
Management and the Office of the Legal Adviser to provide a ruling on whether the embassy has
the authority to process outside group event funds through a commercial bank account and, if
not, to recommend an alternative procedure. (Action: Embassy Paris)

Human Resources

        The human resources officer manages a section and its complex issues well. Allowance
documentation is current. The FAST program is improving steadily. The position classification
program is in order, with sufficient in-house expertise to manage it. The section’s priority is
long-term succession planning to prepare for the retirements of many senior locally employed
staff members during the next 10 years.

       The human resources office is split in two, with American services on one side of a
corridor and locally employed staff services on the other. The configurations of both offices are
unwelcoming and confusing. On entering either office suite, it is not clear to whom one should
address initial questions, who is a receptionist, or who is a supervisor. TMM is exploring
possible solutions.

       The inspectors observed that the grade levels for locally employed staff members
providing similar functions in different APPs are inconsistent.

       Informal Recommendation 18: Embassy Paris should revise locally employed staff
       position descriptions and grades so that they are consistent among all American presence
       posts.
                                          40
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Official Residence Staff

       TMM is rightsizing official residence staff across the board. As stated in the U.S. Mission
to UNESCO and the U.S. Mission to the OECD reports, these missions are reducing their official
residence staffs. In 2009, the bilateral Ambassador’s residence staff was reduced from 16 to 13
employees.

        In 2009, the bilateral ambassador hired a U.S. citizen chief of staff to augment the official
residence staff. A residence manager, responsible for the overall management of the residence
and its representational events, had been in place for many years. The chief of staff has been
involved in the embassy’s cultural heritage program and with events at the Marshall Center in
addition to his responsibilities at the residence. Elsewhere in this report, the inspectors
recommend that the chief of staff cease involvement in these inherently governmental functions.
Because of the high cost of this position, the duplicative nature of its responsibilities, and the
incumbent’s lack of authority to perform inherently governmental functions, the inspectors found
the position redundant.

Recommendation 36: Embassy Paris should cease funding a chief of staff position as part of the
Ambassador’s official residence staff on the departure of the current Ambassador. (Action:
Embassy Paris)

        The official residence staff includes the Ambassador’s speechwriter. According to
Department Standardized Regulations 411 d., household staff performs household duties at the
official residence. Although the speechwriter does not perform household duties at the residence,
the position is funded as an official residence expense, which is an inappropriate use of these
funds.

Recommendation 37: Embassy Paris should determine an appropriate direct-hiring mechanism
for the Ambassador’s speechwriter and terminate the incumbent’s employment as a member of
the official residence staff. (Action: Embassy Paris)

Performance Evaluations

        During the FY 2011 rating cycles, several performance evaluations for both U.S. direct-
hire and locally employed staff were overdue. Although the human resources office reminded the
supervisors in question of their obligations, several of the submissions were still late. (b) (5)



Recommendation 38: Embassy Paris should hold rating officers accountable for timely
submission of annual employee performance evaluations and cite poor performance in the
delinquent officer’s own performance evaluation. (Action: Embassy Paris)

       Entry-level officers’ performance evaluations are due at different times, and it is
important to track these dates closely and provide reminders for supervisors. The human
resources office has begun to develop a tracking and reminder system for entry-level officer
evaluations, but it is still rudimentary.
                                          41
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 39: Embassy Paris should develop a system to provide supervisors with
advance notice of each entry-level officer’s performance evaluation due date. (Action: Embassy
Paris)

Locally Employed Staff Position Descriptions

        The OIG team found that a number of locally employed staff members do not have
updated position descriptions. Supervisors have not been updating or confirming position
descriptions during the annual performance evaluation process, as required by 3 FAH-2 H-443.
If position descriptions do not reflect the actual duties performed by the employee, there can be
gaps in performing essential duties and adequately documenting performance.

Recommendation 40: Embassy Paris should revise all outdated locally employed staff member
position descriptions to reflect actual responsibilities and duties performed. (Action: Embassy
Paris)

Eligible Family Members

        The eligible family member employment program gets mixed reviews from Washington
and embassy interlocutors. Although the embassy is trying to establish three additional family
members positions through the Professional Associates Program, the number and diversity of
existing positions are low for such a large post. The inspectors encouraged the embassy to
continue its efforts to establish eligible family member positions.

Post Language Program

        The embassy has neglected the post language program. In a human resources office
survey in November 2011, only 70 percent of current students thought that the lessons were clear
and organized and that the instructor was well prepared. The embassy spent $92,600 in FY 2011
on the language program, and officers take valuable time from their work to attend class in order
to enhance their language capabilities. Survey scores indicate that the program is not effective.

       Informal Recommendation 19: Embassy Paris should reenergize the post language
       program by observing classes, mentoring the instructor, interviewing students to find
       client-needs-based improvements, and hold the instructor accountable for a successful
       program.

Equal Employment Opportunity

        Embassy Paris has three enthusiastic and well-informed Equal Employment Opportunity
(EEO) counselors and two equally committed locally employed staff EEO liaisons. The team has
posted accessible and complete EEO information on the embassy’s Web site; the counselors
meet periodically to discuss the programs; and one of the locally employed staff liaisons has
taken EEO training and shared her materials with the second liaison, who hopes his agency will
fund training for him in the near future.



                                          42
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

        Approximately 18 months ago, the embassy asked the Department’s Office of Civil
Rights to conduct EEO training at all three Paris missions. Recently, the embassy’s human
resources section asked the EEO counselors to retrain employees from one section. The
counselors contribute an EEO-related article to the embassy’s widely read newsletter every
month. This level of attention to EEO issues indicates management’s strong commitment to EEO
principles.

        All of the EEO counselors and liaisons work at the chancery or at the NEO building. It is
understandable that the two multilateral missions do not have their own EEO counselors because
of their small size and the difficulty of finding a counselor who would not be the employee’s
supervisor or immediate colleague. Some employees at the multilateral missions, however, do
not know whom to contact on EEO questions because the EEO counselors do not visit those
missions regularly and there is no cafeteria or other gathering place to post EEO notices.

       Informal Recommendation 20: Embassy Paris should implement a plan to conduct
       periodic Equal Employment Opportunity training programs at the two multilateral
       missions.

Financial Management

        The financial management office is in flux as it outsources vouchers and adjusts to E2
travel services. This transition has highlighted weaknesses in processes and oversight that are
addressed in the Management Controls section of this report. The financial management officer
has not established voucher examination procedures that contribute to adequate internal controls.

International Cooperative Administrative Support Services

        The ICASS program functions well at Embassy Paris. The financial management officer
calls budget committee meetings only twice a year due to the size of the committee, but
individual agencies are satisfied with the quality of information they receive from the financial
management section. Council meetings are well organized, informative, and efficient. The
embassy publicizes the ICASS learning library with online information. Budget carryover
amounts are relatively small.

Cashiering
       (b) (5)




       Informal Recommendation 21: (b) (5)


        In Marseille, the inspectors also observed an unannounced cash count, which verified the
cashier’s accountability. The cashier’s office also serves as the cashier cage. The cashier
dispenses cash through a small cutout in a door that does not appear to meet standards for a
                                         43
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

cashier operation. (b) (5)




Recommendation 41: Embassy Paris should survey the cashier’s office at Consulate General
Marseille, enforce standards regarding cashiering operations, and take corrective action if
required. (Action: Embassy Paris)

        In Strasbourg, the administrative assistant also serves as subcashier to the Paris Class B
cashier. A cash count verified her cash advance as correct.

Vouchering

See the Management Controls section of this report.

Accommodation Exchange

       The TMM section provides accommodation exchange in both Paris and Marseille even
though automatic teller machines are available and safe. The cashier also facilitates U.S. dollar
deposits to clients’ local bank accounts, and that service could continue. Per 4 FAH-3 H-361.2 a.,
each ambassador decides whether to authorize the Class B cashier to provide accommodation
exchange services after considering the availability of U.S.-owned foreign currency in the
country and satisfactory local banking and/or automatic teller machine facilities for obtaining the
currency. Per 4 FAH-3 H-361.2 c., having the Class B cashier provide accommodation exchange
increases the amount of the cashier’s advance and places the casher at greater risk of receiving an
uncollectible check.

Recommendation 42: Embassy Paris should conduct a management review to determine
whether the embassy should continue to provide cash accommodation exchange services.
(Action: Embassy Paris)

Information Management

       Embassy Paris operates one of the largest information management programs in the
world. The section provides excellent direct support to all three Paris missions as well as off-site
support to six constituent posts. The section is perceived as a strong component of the TMM
platform, receiving high scores on both ICASS and OIG surveys.

       The information management program covers the standard array of information
technology operations, including the OpenNet Plus and ClassNet networks; dedicated Internet
network; mail and pouch management; radio and telephone operations; digital video
conferencing; and the mission’s mobile computing platforms, including a BlackBerry
communications network.




                                          44
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

       The information management officer has tried to address long-standing operational issues
by creating a team-oriented work environment. However, recent staff turnover has made this
approach difficult.

        The OIG team identified several areas requiring management’s immediate attention,
including helpdesk operations, radio operations, network infrastructure, mobile communications,
telephone network, and mail processing. The OIG team reviewed systems management,
telephone operations, radio programs, and mail operations. Information security issues are
covered in the classified annex to this report. Section management expeditiously resolved several
issues identified during the inspection.

Information Systems Center

        Helpdesk operations are handled by staff members who each specialize in an operational
area. The same individuals also manage other projects. At times, there is conflict between the
need for helpdesk support and ongoing project management, resulting in disruption of project
tasks. Intermittent disruptions in work patterns increases the amount of time and resources
required to complete projects.

Recommendation 43: Embassy Paris should implement a plan to cross-train helpdesk staff
members so that each employee can address the full range of helpdesk issues. (Action: Embassy
Paris)

        In addition to problems with scheduling support staff for helpdesk duties, the information
systems center lacks a single focal point for basic helpdesk services. Customers currently submit
service requests either through the online eServices system or by contacting the information
systems center staff directly. Service requests are then coordinated on an ad hoc basis, leaving
the helpdesk vulnerable to either failing to respond to requests or duplicating service.

Recommendation 44: Embassy Paris should implement a helpdesk coordination plan, complete
with standard operating procedures, for managing all helpdesk service requests. (Action:
Embassy Paris)

Information Programs Center

        The information programs center is led by a cohesive management team. The newly
arrived information programs officer has put together a project-oriented structure and is starting
to see results. The unit’s specialists have taken a proactive approach to addressing a number of
long-standing issues. Classified systems support is effective, and customers gave high ratings to
mail, pouch, and telephone services.

Radio Inventory

        Embassy Paris does not have an updated working inventory for its 350 radio units, which
is an internal controls weakness. Typically at a mission of this size there is at least one locally
employed staff member responsible for daily administrative duties. To redress this weakness, the

                                          45
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

information programs officer intends to assign such duties, including inventory maintenance, to a
telephone technician. The OIG team supports this approach.

       Informal Recommendation 22: Embassy Paris should assign daily administrative duties
       for the radio program, including inventory maintenance, to an appropriate staff member
       in the information programs center.

Electrical and Cabling Infrastructure

        The network cabling infrastructure at the chancery requires maintenance. A review of the
cabling infrastructure identified surplus wires and obsolete cabling that hinder operational
maintenance. Although the section is aware of the issue and has taken steps to address it, staff
lacks sufficient technical expertise to complete the job.

Recommendation 45: Embassy Paris, in coordination with the Bureau of Information Resource
Management and the Regional Information Management Center Frankfurt, should organize the
chancery’s network cabling. (Action: Embassy Paris, in coordination with IRM and RIMC
Frankfurt)

        The chancery’s unclassified server room also requires attention to organize and label its
network cables appropriately. Department standard 5 FAH-9 H-380 establishes a uniform
identification process for infrastructure and equipment components. Inadequately identified
network cabling could potentially hamper network staff from fixing connectivity problems
expeditiously.

       Informal Recommendation 23: Embassy Paris should organize and label the unclassified
       server room network cabling according to the Department of State standard.

Obsolete Power Supply

        During the inspection, the embassy identified a parasitic power supply and disabled it,
leaving the physical infrastructure in place. This obsolete system provided backup support for a
previous generation of system operations and had never been removed. As a result, the embassy
has been running multiple industrial transformers unnecessarily for more than 15 years. The cost
to power these units roughly equates to that needed to run electricity in two single-family homes
for the same period of time, or $50,000.

Recommendation 46: Embassy Paris should remove the obsolete power supply infrastructure.
(Action: Embassy Paris)

Telephone Operators

        Embassy Paris employs a telephone operator 24 hours a day; however, embassy
operations do not justify this coverage. The 10 p.m. to 6:00 a.m. shift receives an average of only
five calls per shift. Elimination of this shift would save the embassy more than $62,000 per year.


                                          46
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 24: Embassy Paris should evaluate the mission’s
       switchboard operations and determine whether there is a need for coverage 7 days a
       week, 24 hours a day.

Mobile Communications

      The Embassy Paris mobile communications program lacks internal controls. Although
management recently created a BlackBerry manager position to address internal controls
weaknesses in that program, cell phone management does not fall under that manager’s purview.

Recommendation 47: Embassy Paris should implement internal controls for the effective
management of all mission mobile communications units. (Action: Embassy Paris)

        The mission’s BlackBerry and cellular phone contracts are at least 5 years old and
overdue for renewal. The contracts are no longer competitive with those of other service
providers currently operating in France. The embassy accrues significant monthly overage
charges, which inflate contract costs. There are a number of service options that might reduce
these fees significantly. Preliminary estimates suggest that yearly savings could be as much as
$500,000, but the embassy has not yet solicited new proposals.

       Informal Recommendation 25: Embassy Paris should recompete the BlackBerry and
       cellular phone contracts.

Telephone Network Operations

        The Raphael building has had duplicative telephone networks since 2005. This
redundancy is a legacy of the U.S. Mission to the OECD’s move from OECD headquarters to the
Raphael building. At that time, unified phone services through TMM were not available and the
U.S. Mission to the OECD argued successfully that it needed to maintain direct telephone
connections to its headquarters. U.S Mission to UNESCO telephone extensions subsequently
were added to the original OECD telephone network. Now that TMM can support the needs of
both multilateral missions, duplicative telephone systems are no longer required. According to
TMM, this unecessary telephone system costs approximately $7,500 per year.

Recommendation 48: Embassy Paris should discontinue the legacy telephone network
connecting the U.S. Mission to the Organization for Economic Cooperation and Development to
the Organization for Economic Cooperation and Development headquarters. (Action: Embassy
Paris)

Network Operations

        The Embassy Paris network has serious latency issues that severely hinder operations at
the constituent posts. The OIG team observed delayed or slow processing throughout the
mission, including in several critical Web-based applications. The information systems officer is
working with the Department’s Telecommunications Program Office to solve the problem. The
installation of a NexGen platform is a possible long-term improvement. The OIG team supports
an expedited solution to this problem.
                                         47
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 49: The Bureau of Information Resource Management, in coordination with
the Diplomatic Telecommunication Service Program Office, should resolve the Embassy Paris
network latency problem. (Action: IRM, in coordination with DTS-PO)

State Messaging and Archive Retrieval Toolset

        None of the Paris missions is making effective use of the State Messaging and Archive
Retrieval Toolset (SMART) program. In all three missions, the OIG team found that reporting
officers are not retaining record emails. Although the IM staff has provided training to users,
created a number of SMART user guides on the mission’s SharePoint site, and created a link to
SMART online training for the user community, these efforts have not resulted in the use of
record email by all officers and sections. Unless the embassy addresses this issue, important data
needed for policy analysis and archival research will not be available in the future.

       Informal Recommendation 26: Embassy Paris should implement a policy that requires
       personnel at all three missions to take the record email training and to use the State
       Messaging and Archive Retrieval Toolset.

IPad Technology

       TMM has purchased a number of iPads to meet operational requirements. Although the
Department continues to create mobile computing solutions, TMM has lagged in establishing
appropriate management controls for the units. During the inspection, TMM drafted a
management memorandum to address the use and support of these devices. Lack of formal
guidelines governing the use of these devices is a management controls weakness.

Recommendation 50: Embassy Paris should establish management controls for all iPads
purchased and operated by tri-mission staff. (Action: Embassy Paris)

Consulate General Marseille Information Management

        Consulate General Marseille’s information management program is managed by a sole
locally employed systems administrator, who by all accounts has done transformative work.
System operations are well maintained, and he has undertaken significant projects to improve
network infrastructure. A clerk in the consular section provides backup support duties. She has
successfully completed the consular systems training and attends other on-the-job training when
time permits.

       Embassy Paris provides regularly scheduled support visits to the consulate general in
addition to some remote oversight. The Marseille systems administrator has incorporated a
number of innovative operations practices. Regularly scheduled communication among
information management staff members at Embassy Paris, Marseille, and Strasbourg would
enhance the exchange of innovative ideas. The embassy’s digital video conferencing system
would be ideal for this purpose.

       Informal Recommendation 27: Embassy Paris should establish regular communication
       with the systems administrators at the consulates general in Marseille and Strasbourg.
                                         48
                             SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Quality of Life
Community Liaison Office

        The community liaison office (CLO) gets high marks from clients. In this large mission,
CLO services for families are particularly important. There are two CLO coordinators, a CLO
assistant, and a newsletter editor. Even with this relatively large CLO contingent, all of the staff
works uncompensated hours to get the job done.

       The two coordinators each work 32 hours per week, and the CLO assistant works 20
hours per week. The four CLO employees are professional and creative in backing one another
up and keeping everyone informed. The OIG team counseled staff on ways that TMM could
provide more guidance to the coordinators.

Overseas Schools

         There is a range of options for families with school-age children assigned to the missions
in Paris. The general level of satisfaction with these schools, as shown by surveys and
interviews, is high. The majority of children of tri-mission American staff attend either (b)
                                                                                          (5)
(b)(5)(b)(6)                or (b)(5)(b)(6)             but other options exist.
                                                                                           (b)
                                                                                           (6)
       (b)(5)(b)(6)
                       For many years, the status of the school property was unclear, which
inhibited full updates to and maintenance of the facilities. The recent purchase of the land from
the French Government has resolved the ownership issue. The school currently has long-term
plans to upgrade and renew its campus. The Ambassador serves as a nonvoting member of the
board, whereas the DCM is a voting member. (b)(5)(b)(6)                        has received grants
from the Department of Overseas Schools; the current grant is a relatively modest award of
approximately $30,000.
       (b)(5)(b)(6)                                                   This school is well-
regarded by parents. (b)(5)(b)(6)
                                offers a relatively small but effective program for children with
moderate special needs, which some perceive as a strength of this institution.
       (b)(5)(b)(6)                                          have received security grants from
the Department’s soft-target  initiative. (b)(5)(b)(6)                 received approximately
$500,000 for the installation of an access control system, new closed-circuit television system,
emergency radio/public address system, shatter-resistant window film, and new security gates.
(b)(5)(b)(6) received more than $200,000 in grants to install an access control system, public
address system, closed-circuit television upgrade, and alarm system.
       (b)(5)(b)(6)                                          have structures in place to support
students with mild to moderate learning disabilities, but neither is able to provide the level of
support that might be available in the United States. Mission management is attentive to the
problems of children with special needs and does its best to ensure that parents are fully
informed about the situation. The mission’s post report clearly states that not all children with

                                           49
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

special needs can be accommodated and stresses the need for parents with these concerns to
contact the Department’s Office of Medical Services as soon as an assignment is made.

Health Unit

        Health unit staff includes three part-time nurses and a full-time receptionist. They
primarily provide referrals to local health care providers, and the medical orientation information
is excellent. The health unit is well informed about local health care providers.

       The health unit is not, however, proactive on seeking out and responding to client
feedback. The inspectors observed that in at least one case, despite receiving negative client
feedback on a specific service provider, the health unit continued to advertise the individual’s
services.

       Informal Recommendation 28: Embassy Paris should devise a customer satisfaction
       survey for the health unit and take appropriate action on the feedback.

       Health unit employees are professionally qualified, competent, and dedicated nurses.
However, they are not managers, and the OIG team counseled TMM on providing more hands-
on guidance to health unit employees on how to standardize and improve services to clients.

Commissary and Recreation Association

        The Embassy Association Services for Employees in Paris provides a commissary,
cafeteria with catering services, lounge/bar, gift shop, gymnasium, gasoline coupon sales, tailor,
and other services to the tri-mission community. The association’s operations have been in flux
for nearly a decade as a succession of boards has tried to realign the association’s business model
to keep it financially viable and relevant. The association last posted an operating profit in 2006,
but sales have fallen dramatically, and losses from 2007 to 2010 amounted to $395,000, bringing
reserves to new lows. During this period, the association changed general managers three times,
and in 2008, several employees were terminated for malfeasance at considerable financial cost.
More recently, it was discovered that withholding tax for American employees had not been
remitted to the Internal Revenue Service. The day the inspection team arrived in Paris, the
association computer suffered a major crash, and critical inventory and membership data had to
be reconstructed. Financial reports for 2011 are not yet in, but the association expects another
loss.

        Despite these setbacks, the embassy community wants the association to succeed, and the
Ambassador has taken a personal interest in seeing it become a model for associations
worldwide. TMM management and the all-volunteer association board elected in July 2011 are
making a concerted effort to improve operations and have developed a solid written strategy. In
September 2010, at the request of TMM, a representative from the Department’s Office of
Commissary and Recreation Affairs conducted training for the new board. The association hired
an energetic management team, the bar has reopened, and locally employed staff is now allowed
to purchase non-duty-free gift items and food items for consumption on the premises, thereby
increasing patronage. The inspectors suggested that the association look for ways to maximize

                                          50
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

patronage by expanding the range of goods available to local staff such as fast-moving logo
items procured locally. The facilities are attractive, functional, and well maintained by TMM.

        The Office of Commissary and Recreation Affairs is dispatching an internal audit team to
Paris in May 2012 to conduct a full analysis of the association’s operations. That team will make
recommendations for improving internal controls, financial statements, inventory levels, and
safety and health and for validating agreements with locally hired employees. The ultimate
success of the association will depend upon a partnership among the association board, the
Office of Commissary and Recreation Affairs, and TMM at the highest levels, which can help
inform board decisions and provide oversight on the Ambassador’s behalf. Per 6 FAM 514.1 c.,
the Ambassador or his designee is responsible for monitoring the activities of the employee
association to ensure compliance with Departmental directives and to protect the interests of the
U.S. Government. Furthermore, the Ambassador or his designee is granted a nonvoting seat on
the association’s board of directors in accordance with 6 FAM 522. The appointment of a
designee would reflect the importance the Ambassador places on the future viability of the
association.

Recommendation 51: Embassy Paris should assign a senior officer as the Ambassador’s
designee to the employee association board. (Action: Embassy Paris)




                                         51
                             SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED


      Management Controls
             The three missions in Paris have suffered from long-term inattention to management
      controls. The inspectors identified problem areas in official residence expenses; representational
      expenses; travel authorizations and vouchers; invitational travel; inadequate records on
      acceptance of gifts; inappropriate use of official residences and official residence staff;
      representation, including spousal representational travel; and use of official vehicles. The
      inspectors reviewed the statements of assurances on management controls signed by the three
      Ambassadors in Paris. None of them identified these areas as vulnerabilities.

               TMM has not taken adequate responsibility for oversight of internal controls, nor has it
      taken the lead in advising the three Ambassadors on relevant regulations and appropriate
      procedures. Tools such as the annual risk assessment are helpful, but it is also essential to verify
      that each employee with a role in management controls up and down the chain of command
      thoroughly understands his or her responsibilities and is held accountable for the performance of
      those duties. The three Ambassadors, their DCMs, and TMM have not taken sufficient steps to
      verify that employees at all levels feel empowered to question anomalous claims, expose internal
      control vulnerabilities, and perform their assigned management controls responsibilities.
(b) (5)




      Recommendation 52: The Bureau of Resource Management, in coordination with the Office of
      the Legal Adviser, should draft a standard cable for regional bureaus to send to new ambassadors
      in the first month of their tenure that clearly explains their responsibilities for oversight of
      missionwide management controls and the need to conduct a rigorous analysis of potential


                                                52
                                    SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

vulnerabilities during the annual chief of mission certification exercise. (Action: RM, in
coordination with L)

Staffing Gaps

        There is pressing work to do in the area of management controls. Key players are the
financial management and general services officers. Both the financial management and general
services units are suffering from unanticipated staffing gaps. Filling the financial management
officer gap is complicated by the position’s language designation. The financial management
officer is responsible for organizing voucher examination and for supervising the office that has
virtually all the responsibility for travel management controls. Without an experienced financial
management officer in place, the embassy will be unable to institute improved travel
management controls.

Recommendation 53: The Bureau of European and Eurasian Affairs, in coordination with the
Bureau of Human Resources, should remove the language designation from the financial
management officer position (number 53-107000) or grant a waiver to the officer assigned to the
position to hasten the employee’s arrival at post. (Action: EUR, in coordination with DGHR)

       Informal Recommendation 29: Embassy Paris should request temporary duty assistance
       until the general services officer is able to resume his duties.

        The mission travel policy dates from 2001 and is incomplete and misleading. The policy
implies that actual subsistence rates are not uncommon and that flat rate lodging without receipts
is acceptable. The mission travel policy includes no explanation of the different types of travel or
of travel on cost construction. There is no mention of the requirements that must be met to justify
premium travel, nor is there discussion of Fly America requirements. Per 14 FAM 515 c. (1), the
traveler is responsible for the correct performance of official travel. The embassy has not made it
easy for travelers to access the information they need to make responsible decisions in the
interest of good customer service, transparency, and responsible stewardship of U.S.
Government resources,. Without a definitive policy, it is at best difficult and cumbersome for
travelers and those responsible for management controls to carry out official travel at reasonable
cost and within regulations.

Recommendation 54: Embassy Paris should implement a written, comprehensive, and accurate
travel policy that includes clear information on the different types of official travel, how to
request and perform travel, how and when to use cost construct travel, the required
authorizations for premium class travel, and the requirement to use the most direct and
expeditious routes consistent with economy and reasonable comfort and safety. (Action:
Embassy Paris)

        There are no clear lines of authority, responsibility, and accountability among the
mission’s travel service providers. This situation is the result of neglect of internal controls over
time, the heavy visitor workload, staffing gaps, and faulty implementation of the automated E2
travel service system. This lack of clear accountability has led to the approval of travel
authorizations and vouchers that do not comply with regulations.

                                           53
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 55: Embassy Paris should document the logical hierarchy of responsibility
and accountability for travel management controls, including clear approval chains for E2 travel
services, specific descriptions of accountability in each employee’s position description and
work requirements, and sufficient numbers of backup employees for each function, so that there
is continuity of service during staffing gaps. (Action: Embassy Paris)

Travel Authorizations

        The part that the general services office plays in the travel function is minimal due to
historical factors such as staffing gaps and the considerable role of the visitor support unit. Per
the embassy’s delegation of authority management memorandum number M2011-024, dated
December 13, 2011, the supervisory general services officer is the authorizing and approving
officer for all travel. However, in all three Paris missions, individual sections’ office
management specialists, section heads, and employees of the financial management section, in
fact, perform this function through the E2 travel services system. As a result, the supervisory
general services officer does not play an appropriate role at the outset in reviewing travel
authorizations for compliance with regulations.

Recommendation 56: Embassy Paris should assign the supervisory general services officer
responsibility for reviewing supporting documentation and approving initial authorizations for all
official travel and incorporate this responsibility into the officer’s work requirements statement.
(Action: Embassy Paris)

        The embassy authorized premium class travel for one of the three ambassadors without
obtaining Department approval because of inappropriate delegation of responsibility for travel
management controls to employees unfamiliar with travel regulations. Per 14 FAM 567.2-4 a.
(1), premium class travel for any ambassador must be approved by his or her bureau’s executive
director. Failure to obtain the appropriate authorization puts the traveler at risk of having to
reimburse the cost of premium travel and possibly at risk of ethics violations.

Recommendation 57: Embassy Paris should enforce the policy requiring approval from the
appropriate bureau executive director for premium class travel requested by any ambassador.
(Action: Embassy Paris)

        The embassy has authorized actual lodging costs without adequate justification. Part of
the cause seems to be an incomplete understanding of the regulations. Per 14 FAM 576.2-2 c.,
authorizing officials may authorize actual expenses only for lodging, not to exceed 300 percent
of the applicable rate for lodging. However, the conditions under which actual lodging expenses
may be authorized are found in 14 FAM 576.1 c. and are very specific and limited. Travelers
have had to reimburse excess costs after the fact because of faulty travel authorizations.

Recommendation 58: Embassy Paris should authorize actual lodging costs in accordance with
Department of State regulations and provide training for employees who perform this function.
(Action: Embassy Paris)

       The embassy has authorized invitational travel outside the country because of
inappropriate delegation of responsibility for travel management controls to employees with
                                          54
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

insufficient knowledge of travel regulations. Per 2 FAM 962.1-8 b., the executive director of the
relevant bureau has authority to approve gifts of invitational travel outside a country of
assignment. Failure to obtain the appropriate authorization puts the traveler at risk of having to
reimburse the invitational travel costs and at risk of ethics violations.

Recommendation 59: Embassy Paris should enforce the policy requiring approval from the
appropriate bureau executive director for invitational travel outside the employee’s country of
assignment. (Action: Embassy Paris)

        The embassy has authorized invitational travel for employees’ spouses because of
inappropriate delegation of responsibility for travel management controls to employees
unfamiliar with travel regulations. Per 2 FAM 962.1-8 d., all such invitational travel must be
authorized by the Office of the Legal Adviser’s ethics office, in addition to the executive director
of the relevant bureau or administrative officer, as applicable. Failure to obtain the appropriate
authorization puts the employee at risk of having to reimburse the invitational travel costs and at
risk of ethics violations.

Recommendation 60: Embassy Paris should enforce the policy requiring approval from the
Office of the Legal Adviser and the appropriate bureau executive director, as applicable, for
invitational travel by the spouse of an employee outside the employee’s country of assignment.
(Action: Embassy Paris)

Fiscal Irregularity

        The inspectors discovered instances in which Embassy Paris disbursed funds
inappropriately because of improper voucher examination and certification. Per 4 FAM 374, an
embassy must notify the Department as soon as it determines that the probability of a fiscal
irregularity exists. The content of the required report on fiscal irregularities is outlined in 4 FAM
374 f. Failure to report fiscal irregularities impedes the Department’s ability to hold employees
accountable and to seek restitution when appropriate.

Recommendation 61: Embassy Paris should develop procedures to report to the Bureau of
Resource Management all fiscal irregularities as soon as discovered and submit a final report of
investigation to the Bureau of Resource Management that includes information on any restitution
obtained. (Action: Embassy Paris)

Travel Vouchers

        The financial management office is responsible for examining travel vouchers before
passing them to the post support unit for additional checking and certification. However, the
office is unsure of its appropriate role now that it is outsourcing voucher examination and
certification to post support units. Per 4 FAM 043 a., employees at all levels are expected to be
familiar with management control objectives and techniques associated with their assigned
duties. Per 4 FAM 043 b., managers are responsible for the establishment, maintenance,
continuing evaluation, and monitoring of management controls. Lack of clarity about employees’
authority, responsibility, and accountability in the financial management section results in
inappropriate payments to travelers and increases the risk of fraudulent travel vouchers.
                                          55
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 62: Embassy Paris should document voucher examiner roles and emphasize
that it is the financial management section’s responsibility to examine vouchers thoroughly even
though the post support unit will do the same before certifying them. (Action: Embassy Paris)

         Inspectors reviewed a number of travel vouchers for which the financial management
office had approved actual lodging costs. Staff members commented that they do not review
travel regulations and certify vouchers on that basis but instead simply confirm the availability of
funds to pay for the requested actual costs. There is lack of clarity in the financial management
office about the proper roles and responsibilities of a certifying officer. Per 4 FAM 414, the
certifying officer is personally liable to repay the amount of any illegal or improper payment
resulting from his or her certification. Per 4 FAM 432 b., the certifying officer may be relieved
of this liability only if no law specifically prohibits the payment and if the certifying officer
could not have discovered correct information by reasonable diligence and inquiry. By not
inquiring and attempting to find the correct information, the certifying officer puts himself at risk
of financial liability and the embassy at risk of fiscal irregularities.

Recommendation 63: Embassy Paris should provide written guidance to all certifying officers
explaining their roles and responsibilities as outlined in Department of State regulations. (Action:
Embassy Paris)

         The financial management section has developed expertise on the mechanics of the new
E2 travel services automated system; however, staff does not understand and apply the FAM
guidelines governing approval and decisionmaking for unusual travel situations. When the
embassy made travel arrangers in individual offices responsible for producing travel
authorizations, the travel arrangers (usually office management specialists in each section of the
embassy) looked to the voucher examiners to help put together travel authorizations. As noted
earlier, the general services office is responsible for procuring travel—producing the travel
authorizations— but is not performing that role. Per 4 FAM 042 (3) and 4 FAH-3 H-413.5 b., the
procurement and voucher examiner functions are to be independent of each other. Allowing
voucher examiners to assist with travel authorizations is a violation of separation of duties.

Recommendation 64: Embassy Paris should separate the travel authorization and voucher
examiner functions by transferring responsibility for travel authorizations from the financial
management section to the general services office. (Action: Embassy Paris)

        Embassy Paris has amended travel authorizations inappropriately to benefit the traveler
after the fact. Because the travel authorization function is linked directly with financial systems
through E2 travel services, amending the travel authorization to conform to the amount of money
actually spent on travel has become routine. Use of the E2 system does not obviate the need to
follow regulatory guidance on amending travel authorizations. Per 14 FAM 524.3 c., travel
orders may not be amended retroactively to increase or decrease the right of the traveler except
under specific conditions. Lack of clear explanation in the E2 travel authorization and voucher
chain of authorization amendments leaves the three missions in Paris vulnerable to inappropriate
travel authorizations and vouchers.

Recommendation 65: Embassy Paris should enforce the policy that permits authorization
amendments to travel orders only under the conditions outlined in Department of State
                                          56
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

regulations and that requires annotation of travel authorization amendments to leave a clear audit
trail. (Action: Embassy Paris)

Payment Vouchers

        In February 2011, Embassy Paris named the financial management office as its
designated billing office. However, the separation of duties between the procurement office and
the paying office took place in name only. The financial management office does indeed receive
the vendor bills but, after logging them in, forwards the original to the procurement section to
package the voucher, including the receiving report, for payment. The financial management
office is not taking full responsibility for the control of payment vouchers. The lack of attention
to internal controls by American supervisors over time and during the transition to automated
systems has resulted in an abdication of responsibility to the procurement office to answer
questions on invoice documentation with vendors to the extent that the procedure violates
separation of duties. Per 4 FAH-3 H-413.5 b. (1) and (3), purchasing goods and services should
be separated from examining invoices and preparing vouchers. Violation of separation of duties
increases the risk of error, waste, and wrongful acts. The correct voucher processing procedure is
explained in detail in 4 FAH-3 H-420.

Recommendation 66: Embassy Paris should implement a plan to bring procurement, receiving,
and payment processes into compliance with Department of State regulations. (Action: Embassy
Paris)

Gifts

        The inspectors found that those staff members assigned to track and dispose of gifts
received by employees do not understand the regulations that govern gift acceptance. Some
missions lack gift acceptance records altogether. TMM assigned gifts disposition responsibilities
to the Ambassadors’ office management assistants because they can more easily track and
dispose of the gifts given to the Ambassador and DCM. Per 3 FAM 4122.1 c., the designated
office for receiving gifts is the embassy management officer. Because gifts are used and disposed
of in accordance with regulations governing property management and disposal, management
officers often delegate this role to the general services office. With no designated gifts officer
and no clear standard operating procedure for gifts disposition, the embassy is out of compliance
with regulations and gift recipients are at risk of ethics violations.

Recommendation 67: Embassy Paris should revise its delegation of authorities memorandum to
identify a gifts officer from the general services office to maintain gift logs and dispose of gifts
in accordance with Department of State regulations. (Action: Embassy Paris)

Official Residence Staff Overtime

       The Ambassador to UNESCO augmented his official residence staff temporarily for
representational events by hiring additional official residence staff members and then terminating
them at the end of the event. This method of obtaining additional help for individual events
augments the representation allotment inappropriately. According to 3 FAM 3256 (1) and

                                          57
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Department Standardized Regulations 320 f., official residence staff overtime and augmentation
expenses for representational events are to be charged to the representation allowance.

Recommendation 68: Embassy Paris should bring its method of accounting for official
residence staff overtime expenses and additional staff support connected to representational
events into conformity with U.S. Government regulations. (Action: Embassy Paris)




                                         58
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: Embassy Paris should implement a reporting plan for Consulate General
Marseille. (Action: Embassy Paris)

Recommendation 2: The Bureau of European and Eurasian Affairs, in coordination with the
Bureau of Diplomatic Security, the Bureau of Overseas Buildings Operations, Embassy Paris,
and the U.S. Mission to the European Union, should devise a strategic plan for cost-effective
U.S. representation in Strasbourg. (Action: EUR, in coordination with DS, OBO, Embassy Paris,
and the U.S. Mission to the EU)

Recommendation 3: Embassy Paris should request that the Department of Homeland Security
designate an attaché with the authority to act as a single point of contact on the full range of
issues handled by that agency. (Action: Embassy Paris)

Recommendation 4: Embassy Paris should establish a countrywide approach to American
Corners that takes into account their overall place in the mission’s strategic planning and the
staff and resources involved in establishing and sustaining them. (Action: Embassy Paris)

Recommendation 5: Embassy Paris should evaluate the work currently being done by the
public affairs section’s administrative unit, either reprogram or abolish duplicative positions, and
reallocate grants oversight work to the appropriate working-level officer. (Action: Embassy
Paris)

Recommendation 6: Embassy Paris should update its open grants files so that they contain all
required documentation, including forms for recording and tracking grants and grantee reports,
and close out open grants appropriately. (Action: Embassy Paris)

Recommendation 7: Embassy Paris should implement a plan for the public affairs section’s
restructured administrative support unit to provide support for small grants and monitor budget
progress and rewrite position descriptions of unit employees to reflect these new responsibilities.
(Action: Embassy Paris)

Recommendation 8: Embassy Paris, in coordination with the U.S. Mission to the United
Nations Educational, Scientific and Cultural Organization, the U.S. Mission to the Organization
for Economic Cooperation and Development, the Bureau of International Organization Affairs,
and the Bureau of Economic and Business Affairs, should determine how the bilateral mission
can provide limited training and mentoring opportunities to the public diplomacy programs at the
two multilateral missions and draw up and approve a memorandum of understanding setting out
mutual responsibilities. (Action: Embassy Paris, in coordination with the U.S. Mission to
UNESCO, the U.S. Mission to the OECD, IO, and EB)

Recommendation 9: Embassy Paris should revise the nonimmigrant visa assistant position
descriptions to reflect actual responsibilities, determining which are at the journeyman versus
highly specialized level, and submit them to the embassy’s human resources section for
reclassification as appropriate. (Action: Embassy Paris)


                                          59
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 10: The Bureau of Consular Affairs should assume responsibility for setting
the Euro consular exchange rate. (Action: CA)

Recommendation 11: Embassy Paris should designate the Paris Federal benefits unit in France
as the sole provider of Federal benefits information and update all public Web sites accordingly.
(Action: Embassy Paris)

Recommendation 12: Embassy Paris, in coordination with the Bureau of Consular Affairs,
should implement a policy requiring the call center to obtain proof of payment of the machine-
readable nonimmigrant visa application fee and a confirmation number from the online
application before scheduling an appointment. (Action: Embassy Paris, in coordination with
CA)

Recommendation 13: Embassy Paris should request that the Office of the Legal Adviser
review the memorandum of agreement between the consular section and the American Aid
Society and determine whether the consular section has authority to provide space and other
resources to this private, nonprofit organization. (Action: Embassy Paris)

Recommendation 14: Embassy Paris, in coordination with the Bureau of Diplomatic Security
and the Bureau of Consular Affairs, should develop specific work requirements and a scope of
work for the new assistant regional security officer – investigator before the employee arrives at
post. (Action: Embassy Paris, in coordination with DS and CA)

Recommendation 15: Embassy Paris should require the public affairs officer to submit formal
input to the employee evaluation reports of the American presence post officers and incorporate
this responsibility into the public affairs officer’s work requirements. (Action: Embassy Paris)

Recommendation 16: Embassy Paris should conduct a thorough cost/benefit analysis of each
American presence post that involves all stakeholders in the posts’ work and make
recommendations to the Department of State about whether continued operations are justified.
(Action: Embassy Paris)

Recommendation 17: The Bureau of Overseas Buildings Operations, in coordination with the
Bureau of Resource Management, should review the history of the forced moves of other
agencies from the chancery to leased accommodations, determine whether fit-out costs at the
NEO building were allocated either in accordance with regulations or per any formal agreement
at the time of the move, and take appropriate remedial action, if required. (Action: OBO, in
coordination with RM)

Recommendation 18: Embassy Paris should request retroactive approval from the Bureau of
European and Eurasian Affairs for the installation of Armed Forces Network service at the
Boulogne and Neuilly complexes and the consul general’s residence in Strasbourg and
implement procedures for collecting payment from occupants for recurring charges for personal
use of this service. (Action: Embassy Paris)

Recommendation 19: Embassy Paris, in coordination with the Bureau of Overseas Buildings
Operations, should develop a comprehensive refurbishment plan for Consulate General


                                          60
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Marseille’s interior and make improvements a priority as funds become available. (Action:
Embassy Paris, in coordination with OBO)

Recommendation 20: Embassy Paris should report the underutilization of the consulate
general building in Marseille in accordance with Department of State regulations. (Action:
Embassy Paris)

Recommendation 21: Embassy Paris should implement a plan to bring all residences leased
by employees under chief of mission authority or funded with U.S. Government allowances into
compliance with U.S. Government space, safety, and security standards for France. (Action:
Embassy Paris)

Recommendation 22: Embassy Paris should transfer responsibility for the management of the
cellular phone program from the procurement section to the information management office.
(Action: Embassy Paris)

Recommendation 23: Embassy Paris should establish an appropriate procedure for handling
funding for the purchase of employees’ personal license plates. (Action: Embassy Paris)

Recommendation 24: Embassy Paris should review all excessive driver overtime and
reallocate resources to keep overtime costs at a minimum. (Action: Embassy Paris)

Recommendation 25: Embassy Paris should enforce tri-mission policy requiring that
passengers in U.S. Government vehicles sign a trip ticket following each trip. (Action: Embassy
Paris)

Recommendation 26: Embassy Paris should cease giving ambassadors’ drivers the title of
security guard/chauffeur. (Action: Embassy Paris)

Recommendation 27: Embassy Paris should submit a request to the Bureau of Administration
and the Bureau of Diplomatic Security for formal authority to retain the four armored vehicles
scheduled for disposal. (Action: Embassy Paris)

Recommendation 28: Embassy Paris should transfer responsibility for negotiating
arrangements with hotels from the visitors unit to an authorized contracting officer. (Action:
Embassy Paris)

Recommendation 29: Embassy Paris should place the cultural heritage program under the
direction of the general services officer. (Action: Embassy Paris)

Recommendation 30: Embassy Paris should determine an appropriate direct-hiring
mechanism for the George C. Marshall Center director and terminate the incumbent’s
employment as a member of the Ambassador’s official residence staff. (Action: Embassy Paris)

Recommendation 31: Embassy Paris should exclude the official residence chief of staff from
any operational oversight of the George C. Marshall Center. (Action: Embassy Paris)



                                          61
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 32: Embassy Paris should place operational oversight of the George C.
Marshall Center and supervision of its director under the tri-mission management section.
(Action: Embassy Paris)

Recommendation 33: Embassy Paris should remove contract signing authority from the
George C. Marshall Center director and the Ambassador’s residence manager and identify an
authorized contracting officer to sign future agreements. (Action: Embassy Paris)

Recommendation 34: Embassy Paris should designate an employee other than the signatories
to the group event account to reconcile the bank statements upon receipt and to control the check
stock. (Action: Embassy Paris)

Recommendation 35: Embassy Paris should submit a request to the Bureau of Resource
Management and the Office of the Legal Adviser to provide a ruling on whether the embassy has
the authority to process outside group event funds through a commercial bank account and, if
not, to recommend an alternative procedure. (Action: Embassy Paris)

Recommendation 36: Embassy Paris should cease funding a chief of staff position as part of
the Ambassador’s official residence staff on the departure of the current Ambassador. (Action:
Embassy Paris)

Recommendation 37: Embassy Paris should determine an appropriate direct-hiring
mechanism for the Ambassador’s speechwriter and terminate the incumbent’s employment as a
member of the official residence staff. (Action: Embassy Paris)

Recommendation 38: Embassy Paris should hold rating officers accountable for timely
submission of annual employee performance evaluations and cite poor performance in the
delinquent officer’s own performance evaluation. (Action: Embassy Paris)

Recommendation 39: Embassy Paris should develop a system to provide supervisors with
advance notice of each entry-level officer’s performance evaluation due date. (Action: Embassy
Paris)

Recommendation 40: Embassy Paris should revise all outdated locally employed staff
member position descriptions to reflect actual responsibilities and duties performed. (Action:
Embassy Paris)

Recommendation 41: Embassy Paris should survey the cashier’s office at Consulate General
Marseille, enforce standards regarding cashiering operations, and take corrective action if
required. (Action: Embassy Paris)

Recommendation 42: Embassy Paris should conduct a management review to determine
whether the embassy should continue to provide cash accommodation exchange services.
(Action: Embassy Paris)

Recommendation 43: Embassy Paris should implement a plan to cross-train helpdesk staff
members so that each employee can address the full range of helpdesk issues. (Action: Embassy
Paris)

                                         62
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 44: Embassy Paris should implement a helpdesk coordination plan,
complete with standard operating procedures, for managing all helpdesk service requests.
(Action: Embassy Paris)

Recommendation 45: Embassy Paris, in coordination with the Bureau of Information
Resource Management and the Regional Information Management Center Frankfurt, should
organize the chancery’s network cabling. (Action: Embassy Paris, in coordination with IRM and
RIMC Frankfurt)

Recommendation 46: Embassy Paris should remove the obsolete power supply infrastructure.
(Action: Embassy Paris)

Recommendation 47: Embassy Paris should implement internal controls for the effective
management of all mission mobile communications units. (Action: Embassy Paris)

Recommendation 48: Embassy Paris should discontinue the legacy telephone network
connecting the U.S. Mission to the Organization for Economic Cooperation and Development to
the Organization for Economic Cooperation and Development headquarters. (Action: Embassy
Paris)

Recommendation 49: The Bureau of Information Resource Management, in coordination with
the Diplomatic Telecommunication Service Program Office, should resolve the Embassy Paris
network latency problem. (Action: IRM, in coordination with DTS-PO)

Recommendation 50: Embassy Paris should establish management controls for all iPads
purchased and operated by tri-mission staff. (Action: Embassy Paris)

Recommendation 51: Embassy Paris should assign a senior officer as the Ambassador’s
designee to the employee association board. (Action: Embassy Paris)

Recommendation 52: The Bureau of Resource Management, in coordination with the Office
of the Legal Adviser, should draft a standard cable for regional bureaus to send to new
ambassadors in the first month of their tenure that clearly explains their responsibilities for
oversight of missionwide management controls and the need to conduct a rigorous analysis of
potential vulnerabilities during the annual chief of mission certification exercise. (Action: RM,
in coordination with L)

Recommendation 53: The Bureau of European and Eurasian Affairs, in coordination with the
Bureau of Human Resources, should remove the language designation from the financial
management officer position (number 53-107000) or grant a waiver to the officer assigned to the
position to hasten the employee’s arrival at post. (Action: EUR, in coordination with DGHR)

Recommendation 54: Embassy Paris should implement a written, comprehensive, and
accurate travel policy that includes clear information on the different types of official travel, how
to request and perform travel, how and when to use cost construct travel, the required
authorizations for premium class travel, and the requirement to use the most direct and
expeditious routes consistent with economy and reasonable comfort and safety. (Action:
Embassy Paris)

                                          63
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 55: Embassy Paris should document the logical hierarchy of responsibility
and accountability for travel management controls, including clear approval chains for E2 travel
services, specific descriptions of accountability in each employee’s position description and
work requirements, and sufficient numbers of backup employees for each function, so that there
is continuity of service during staffing gaps. (Action: Embassy Paris)

Recommendation 56: Embassy Paris should assign the supervisory general services officer
responsibility for reviewing supporting documentation and approving initial authorizations for all
official travel and incorporate this responsibility into the officer’s work requirements statement.
(Action: Embassy Paris)

Recommendation 57: Embassy Paris should enforce the policy requiring approval from the
appropriate bureau executive director for premium class travel requested by any ambassador.
(Action: Embassy Paris)

Recommendation 58: Embassy Paris should authorize actual lodging costs in accordance with
Department of State regulations and provide training for employees who perform this function.
(Action: Embassy Paris)

Recommendation 59: Embassy Paris should enforce the policy requiring approval from the
appropriate bureau executive director for invitational travel outside the employee’s country of
assignment. (Action: Embassy Paris)

Recommendation 60: Embassy Paris should enforce the policy requiring approval from the
Office of the Legal Adviser and the appropriate bureau executive director, as applicable, for
invitational travel by the spouse of an employee outside the employee’s country of assignment.
(Action: Embassy Paris)

Recommendation 61: Embassy Paris should develop procedures to report to the Bureau of
Resource Management all fiscal irregularities as soon as discovered and submit a final report of
investigation to the Bureau of Resource Management that includes information on any restitution
obtained. (Action: Embassy Paris)

Recommendation 62: Embassy Paris should document voucher examiner roles and emphasize
that it is the financial management section’s responsibility to examine vouchers thoroughly even
though the post support unit will do the same before certifying them. (Action: Embassy Paris)

Recommendation 63: Embassy Paris should provide written guidance to all certifying officers
explaining their roles and responsibilities as outlined in Department of State regulations. (Action:
Embassy Paris)

Recommendation 64: Embassy Paris should separate the travel authorization and voucher
examiner functions by transferring responsibility for travel authorizations from the financial
management section to the general services office. (Action: Embassy Paris)

Recommendation 65: Embassy Paris should enforce the policy that permits authorization
amendments to travel orders only under the conditions outlined in Department of State


                                          64
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

regulations and that requires annotation of travel authorization amendments to leave a clear audit
trail. (Action: Embassy Paris)

Recommendation 66: Embassy Paris should implement a plan to bring procurement,
receiving, and payment processes into compliance with Department of State regulations. (Action:
Embassy Paris)

Recommendation 67: Embassy Paris should revise its delegation of authorities memorandum
to identify a gifts officer from the general services office to maintain gift logs and dispose of
gifts in accordance with Department of State regulations. (Action: Embassy Paris)

Recommendation 68: Embassy Paris should bring its method of accounting for official
residence staff overtime expenses and additional staff support connected to representational
events into conformity with U.S. Government regulations. (Action: Embassy Paris)




                                         65
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: Embassy Paris should review existing political and economic
section staffing to determine whether the allocation of resources is consistent with overall
embassy requirements and make adjustments as necessary.

Informal Recommendation 2: Embassy Paris should develop a standard operating procedure
to prioritize issuance of small grants in order to promote greater competition, openness, and
wider managerial input.

Informal Recommendation 3: Embassy Paris should designate, cross-train, and maintain
adequate alternates for each consular function, especially the most complex portfolios, to ensure
continuity of service during staffing gaps.

Informal Recommendation 4: Embassy Paris should establish an email address for the Nice
consular agency and implement a policy that requires consular clients to use email as the
preferred method of scheduling appointments.

Informal Recommendation 5: Embassy Paris should revise the Consulate General Marseille
automated response options menu to provide more detailed consular information.

Informal Recommendation 6: Embassy Paris should establish telephone inquiry hours at
Consulate General Marseille, publicize them on the Web site, and include them in the consulate’s
telephone automated options menu.

Informal Recommendation 7: Embassy Paris should consolidate the consular section spaces to
improve supervision, create stronger section cohesiveness, reduce the number of entrances, and
decrease International Cooperative Administrative Support Services charges.

Informal Recommendation 8: (b) (5)


Informal Recommendation 9: Embassy Paris should establish an appointment system for
routine U.S. Customs and Immigration Service requests to facilitate tracking of actual time spent
on those cases for reimbursement purposes.

Informal Recommendation 10: Embassy Paris should move the Visas Viper coordinator
function to the consular section for the purpose of drafting submission cables and coordinating
required name checks.

Informal Recommendation 11: Embassy Paris should establish a training program for new
members of the interagency housing board.
                                          66
                            SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 12: Embassy Paris should designate a vice chair of the interagency
housing board.

Informal Recommendation 13: Embassy Paris should review all residential housing leases for
employees under chief of mission authority and modify the wording as necessary so that the
lease agreements contain the standard language that the Bureau of Overseas Buildings
Operations has approved for France.

Informal Recommendation 14: Embassy Paris should designate formal backup relationships in
the procurement section and provide cross-training where appropriate.

Informal Recommendation 15: Embassy Paris should confirm with the Bureau of Overseas
Buildings Operations that it is appropriate to place official artworks donated by the Foundation
for Arts and Preservation in Embassies in the private family quarters of the ambassadorial
residences.

Informal Recommendation 16: Embassy Paris should amend its motor vehicle policy to
inform incidental operators of their potential personal liability for damages that may be awarded
by a U.S. or foreign court.

Informal Recommendation 17: Embassy Paris should identify appropriate space in the
chancery as a chauffeur down room.

Informal Recommendation 18: Embassy Paris should revise locally employed staff position
descriptions and grades so that they are consistent among all American presence posts.

Informal Recommendation 19: Embassy Paris should reenergize the post language program
by observing classes, mentoring the instructor, interviewing students to find client-needs-based
improvements, and hold the instructor accountable for a successful program.

Informal Recommendation 20: Embassy Paris should implement a plan to conduct periodic
Equal Employment Opportunity training programs at the two multilateral missions.

Informal Recommendation 21: (b) (5)


Informal Recommendation 22: Embassy Paris should assign daily administrative duties for the
radio program, including inventory maintenance, to an appropriate staff member in the
information programs center.

Informal Recommendation 23: Embassy Paris should organize and label the unclassified
server room network cabling according to the Department of State standard.

Informal Recommendation 24: Embassy Paris should evaluate the mission’s switchboard
operations and determine whether there is a need for coverage 7 days a week, 24 hours a day.

Informal Recommendation 25: Embassy Paris should recompete the BlackBerry and cellular
phone contracts.

                                         67
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 26: Embassy Paris should implement a policy that requires
personnel at all three missions to take the record email training and to use the State Messaging
and Archive Retrieval Toolset.

Informal Recommendation 27: Embassy Paris should establish regular communication with
the systems administrators at the consulates general in Marseille and Strasbourg.

Informal Recommendation 28: Embassy Paris should devise a customer satisfaction survey
for the health unit and take appropriate action on the feedback.

Informal Recommendation 29: Embassy Paris should request temporary duty assistance until
the general services officer is able to resume his duties.




                                          68
                              SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                                             Name     Arrival Date
Ambassador                                        Charles H. Rivkin          08/09
Deputy Chief of Mission                                Mark Taplin           07/10
Constituent Post(s)
    Marseilles: Consul General                         Diane Kelly          03/11
    Strasbourg: Consul General                         Evan Reade           08/11
    APP Bordeaux: Consul                             Joel Maybury           08/10
    APP Lyon: Consul                                 Mark Schapiro          09/10
    APP Rennes: Consul                                 Robert Tate          08/11
    AAP Toulouse: Consul                              Matthew Purl          08/11
Chiefs of Sections:
  Management                                       J. Patrick Truhn         08/10
  Consular                                             Lisa Piascik         05/11
  Political                                        Jonathan Cohen           08/11
  Economic                                         Wendela Moore            07/10
  Public Affairs                                    Philip Breeden          09/11
  Regional Security                                 James Murphy            08/10
Other Agencies:
  American Battle Monuments Commission             Steven Hawkins           12/05
  Department of Agriculture                           Daryl Brehm           09/09
  Department of Commerce                           Reginald Miller          03/12
  Department of Defense                           Thomas Sweeney            08/09
  Department of Energy                            Maureen Clapper           12/11
  Department of Homeland Security                         Andy Yu           08/09
  Department of Justice                              Monique Roth           12/09
  National Aeronautics and Space Administration    Gilbert Kirkham          08/10
  National Science Foundation                       Carmen Huber            09/11
  Department of Transportation                         David Knorr          12/11
  Department of the Treasury                       Aziz Benbrahim           12/08




                                       69
                           SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
APP             American presence post
CLO             Community Liaison Office
COE             Council of Europe
DCM             Deputy chief of mission
Department      U.S. Department of State
DHS             Department of Homeland Security
DOD             Department of Defense
EEO             Equal Employment Opportunity
EU              European Union
FAH             Foreign Affairs Handbook
FAM             Foreign Affairs Manual
FAST            First- and second-tour (program)
ICASS           International Cooperative Adminsitrative Support Services
OBO             Bureau of Overseas Building Operations
OECD            Organization for Economic Cooperation and Development
SMART           State Messaging and Archive Retrieval Toolset
TMM             Tri-mission management
UNESCO          United Nations Educational, Scientific and Cultural Organization




                            70
                SENSITIVE BUT UNCLASSIFIED
   SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT
of Federal programs hurts everyone.




           Contact the
   Office of Inspector General
          HOTLINE
to report illegal or wasteful activities:



             202-647-3320
             800-409-9926


         oighotline@state.gov


             oig.state.gov


      Office of Inspector General
       U.S. Department of State
            P.O. Box 9778
        Arlington, VA 22219




   SENSITIVE BUT UNCLASSIFIED
